<html>
<title> - STAKEHOLDER PERSPECTIVES ON IMPROVING TSA FOR THE SECURITY OF THE TRAVELING PUBLIC</title>
<body><pre>[Senate Hearing 115-42]
[From the U.S. Government Publishing Office]








                                                         S. Hrg. 115-42

   STAKEHOLDER PERSPECTIVES ON IMPROVING TSA FOR THE SECURITY OF THE 
                            TRAVELING PUBLIC

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-000 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 











      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

ROY BLUNT, Missouri, Chairman        MARIA CANTWELL, Washington, 
ROGER F. WICKER, Mississippi             Ranking
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
SHELLEY CAPITO, West Virginia        TAMMY BALDWIN, Wisconsin
CORY GARDNER, Colorado               TAMMY DUCKWORTH, Illinois
TODD YOUNG, Indiana                  MAGGIE HASSAN, New Hampshire




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 16, 2017................................     1
Statement of Senator Blunt.......................................     1
    Prepared statement...........................................     2
Statement of Senator Wicker......................................    25
Statement of Senator Cantwell....................................    27
    Prepared statement...........................................    27
Statement of Senator Gardner.....................................    29
Statement of Senator Inhofe......................................    31
Statement of Senator Capito......................................    33
Statement of Senator Hassan......................................    35
Statement of Senator Duckworth...................................    37
Statement of Senator Klobuchar...................................    39
Statement of Senator Blumenthal..................................    40
Statement of Senator Cruz........................................    42
Statement of Senator Sullivan....................................    45
Statement of Senator Thune.......................................    47

                               Witnesses

Stephen A. Alterman, President, Cargo Airline Association; and 
  Chairman, Aviation Security Advisory Committee.................     3
    Prepared statement...........................................     5
Sharon Pinkerton, Senior Vice President, Legislative and 
  Regulatory Policy, Airlines For America........................     6
    Prepared statement...........................................     8
Kim Day, Chief Executive Officer, Denver International Airport...    12
    Prepared statement...........................................    14
Mark Laustra, Vice President, Global Business Development and 
  Government Relations, Analogic Corporation.....................    17
    Prepared statement...........................................    19

                                Appendix

Response to written questions submitted to Stephen A. Alterman 
  by:
    Hon. Todd Young..............................................    49
    Hon. Brian Schatz............................................    49
    Hon. Gary Peters.............................................    49
    Hon. Maggie Hassan...........................................    50
Response to written questions submitted to Sharon Pinkerton by:
    Hon. Brian Schatz............................................    50
    Hon. Maggie Hassan...........................................    51
Response to written questions submitted to Kim Day by:
    Hon. Gary Peters.............................................    51
    Hon. Maggie Hassan...........................................    52
Response to written questions submitted to Mark Laustra by:
    Hon. John Thune..............................................    53
    Hon. Gary Peters.............................................    57
    Hon. Maggie Hassan...........................................    57

 
                      STAKEHOLDER PERSPECTIVES ON
                     IMPROVING TSA FOR THE SECURITY
                        OF THE TRAVELING PUBLIC

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2017

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:49 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the Subcommittee, presiding.
    Present: Senators Blunt [presiding], Thune, Wicker, Cruz, 
Fischer, Sullivan, Inhofe, Capito, Gardner, Young, Cantwell, 
Klobuchar, Blumenthal, Duckworth, and Hassan.

             OPENING STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. The hearing will come to order. I believe we 
have votes going on right now, and so people will be coming and 
going as we get these two votes out of the way. Senator 
Gardner, who has not had a chance to vote on the first issue 
yet, I'd like you to introduce our friend from Colorado.
    Senator Gardner. Well, thank you very much, Mr. Chairman. 
It gives me great honor to today to introduce the Chief 
Executive Officer of Denver International Airport, Kim Day. 
Prior to her role in Denver, she served as the Executive 
Director of Los Angeles World Airports, helping to manage 
multiple airports in the Los Angeles area.
    Since taking the helm of DIA in 2008, Kim has led the 
airport to record domestic and international passenger levels 
and growth. She has played a key role in the recent reopening 
of the multimillion dollar hotel and transit center that 
connects downtown Denver to the airport terminal with commuter 
rail. And above all else, she has put the passenger experience 
first, working on security improvements at Denver International 
Airport, one of the Nation's busiest airports. I'm very, very 
proud to introduce Kim Day to the hearing today, and I think 
we'll have a great discussion, learning a lot from her.
    And I'm going to go vote and come back for your testimony. 
Thank you.
    Senator Blunt. Thank you, Senator.
    Ms. Day, we're glad to have you here. Also, we're glad to 
have Stephen Alterman, the President of the Cargo Airline 
Association and Chairman of the Aviation Security Advisory 
Committee; as well as Sharon Pinkerton, the Senior Vice 
President of Legislative and Regulatory Policy for Airlines of 
America; and Mark Laustra, the Vice President of Global 
Business Development and Government Relations for Analogic, a 
company that develops state-of-the-art threat detection systems 
for airport screening.
    Clearly, this is an issue that the traveling public cares 
about and the public who thinks they might ever travel cares 
about. Of the things that the government is responsible for, I 
think this is one that the people we work for have the most 
interest in because of the sense of vulnerability once you're 
in a plane that's off the ground. So we're really pleased that 
you're here.
    I'll have a statement for the record, but I think in the 
interest of maximizing your time with members, we'll go ahead 
and start with Mr. Alterman and listen to your opening 
statements.
    [The prepared statement of Senator Blunt follows:]

    Prepared Statement of Hon. Roy Blunt, U.S. Senator from Missouri
    Good morning. Thank you to the witnesses for appearing before this 
Subcommittee today to discuss their perspectives on improving the 
Transportation Security Administration for the security of traveling 
public. Today, we have before us:

  <bullet> Mr. Stephen Alterman, who is both President of the Cargo 
        Airline Association, and Chairman of the Aviation Security 
        Advisory Committee;

  <bullet> Ms. Shannon Pinkerton, Senior Vice President for Legislative 
        and Regulatory Policy at Airlines for America;

  <bullet> Mr. Mark Laustra, Vice President for Global Business 
        Development at Analogic, a company that develops state-of-the-
        art threat detection systems for airport baggage and checkpoint 
        screening; and

  <bullet> Ms. Kim Day, CEO of the Denver International Airport.

    I'm excited to take the gavel of Senate Commerce's Subcommittee on 
Aviation, Safety, and Security. From airports and airlines to 
manufacturing and tourism--aviation supports tens of millions of jobs, 
and trillions in economic output. We must ensure Missouri, and our 
nation, has the underlying infrastructure necessary to complement 
continued growth in the aviation sector. Continued growth is important, 
but it's just as important to ensure the safety of air travel through 
rigorous oversight of the FAA and TSA. Missourians expect our Nation's 
airports to operate efficiently to reduce passenger wait times, but 
they also demand we protect against terrorists, criminals, and 
smugglers. The asymmetric threat of terrorism is most evident in 
aviation security. TSA cannot miss a single threat, but terrorist only 
need to slip by once to commit a potentially catastrophic attack. TSA 
faces a formidable challenge: In 2016, it screened more than 738 
million passenger (more than 2 million per day), 466 million checked 
bags, and 24.2 million employees at 450 of our Nation's airports. We 
must be cognizant of the security challenges in airport public areas, 
and the potential threat posed by insiders with unfettered access in 
secure areas of airports. We must also confront challenges with TSA 
management and its technology acquisition programs, its communication 
with industry stakeholders, and its communication with passengers to 
expand PreCheck. Striking the balance between efficiency for passenger 
convenience and security is--and will remain--an ongoing effort. Recent 
headlines involving attacks at airports in Ft. Lauderdale, Brussels, 
Belgium, and Los Angeles make the threat clear. From lone-wolf 
terrorists--including those who may be inspired by, if not directly 
affiliated with, terrorist organizations--to the prospect of a mass 
casualty attack involving aviation, we must remain vigilant against the 
evolving techniques used by ISIS and other terrorist organizations. The 
Senate Commerce Committee made great strides last year in advancing a 
bipartisan FAA Reauthorization bill. A number of its TSA-and security-
related provisions were included in the short-term FAA Extension, 
Safety, and Security Act.
    Some of the safety-related accomplishments include:

  <bullet> Improvements to TSA oversight of missing airport access 
        badges, and the vetting process for badges of airport 
        employees;

  <bullet> TSA review of airport perimeter security;

  <bullet> Greater partnership between TSA and the private sector in 
        collaboration on private sector marketing to enroll more 
        Americans in TSA Pre3;

  <bullet> Authorizing a doubling of ``Viper'' teams at airports from 
        30 to 60;

  <bullet> Expanding eligibility for the existing State Homeland 
        Security Grant Program for active shooter training exercises 
        and preparedness; and

  <bullet> Authorization of multiple provisions to improve security 
        checkpoints for passengers, including a pilot program at 3 of 
        the top 20 largest airports, an assessment of TSA staffing 
        decisions to optimize efficiency, and directing the Aviation 
        Security Advisory Committee to develop further recommendations 
        for future checkpoints that are more efficient and effective 
        for screening passengers.

    Collectively, these enacted provisions represent the most 
comprehensive reforms to TSA in a decade, and illustrate bipartisanship 
in striking the balance between passenger convenience and ensuring 
security.
    The purpose of this hearing is to examine TSA's implementation of 
these provisions, and to examine what additional steps this committee 
may consider to enhance security for the traveling public. I look 
forward to working with our Committee Chairman, John Thune, our Ranking 
Member, Bill Nelson, and my Subcommittee counterpart, Maria Cantwell, 
on continued bipartisan success in advancing a comprehensive FAA 
reauthorization this year that is pro-growth, pro-jobs, pro-passenger, 
and, most importantly, pro-security. I turn now to Ranking Member 
Cantwell for any remarks she would like to make.

          STATEMENT OF STEPHEN A. ALTERMAN, PRESIDENT,

            CARGO AIRLINE ASSOCIATION; AND CHAIRMAN,

              AVIATION SECURITY ADVISORY COMMITTEE

    Mr. Alterman. Thank you very much. Good morning. My name is 
Steve Alterman. I'm the President of the Cargo Airline 
Association, the nationwide organization that represents the 
all-cargo carriers. I also have the honor of currently serving 
as the Chairman of the Aviation Security Advisory Committee, 
the Federal committee which was established by Congress to 
advise the TSA Administrator on issues relating to all areas of 
aviation security. Thank you very much for inviting us to 
testify today.
    I'd like to focus on three quick areas in my opening 
statement. The first relates to an all-cargo need, and that is 
the need for third-party canines to screen freight to 
supplement the screening that's already done. I'd like to touch 
briefly on the ASAC activity and what we're doing and where 
we're going, and, third, one legislative proposal that sort of 
arises out of the first two issues.
    The all-cargo carriers and the customers and airports they 
serve are a unique portion of the aviation marketplace. Our 
member carriers have annual revenues of over $100 billion and 
employ over one million workers worldwide. Our customers depend 
on the services to transport high-value, time-sensitive 
products, such as medical devices and perishables, computers 
and other electronics, and automobile parts. In calendar year 
2015, all-cargo carriers operated 89.2 percent of the revenue 
ton miles domestically and 71.8 percent of international 
revenue ton miles.
    In operating these services, the safety and security of our 
cargo, our facilities and aircraft, and our employees are of 
the utmost importance. It's simply bad policy and bad business 
not to take these issues seriously. In the area of security, we 
strongly believe that the best security is achieved when 
government and industry work together to identify 
vulnerabilities and design and implement mitigation strategies. 
Over the past few years, I'm happy to report that TSA has also 
moved in this direction, and we look forward to working with 
the agency as the outcome-based model of regulation matures, 
still in its infancy.
    In terms of current challenges, probably the most pressing 
need for the all-cargo carriers, as business and screening 
requirements expand, is an ability to use third-party canines 
as a primary means of screening freight. The technology to 
screen freight in a manner consistent with our operational 
needs simply does not exist today. However, the use of canines 
can fill this gap.
    Since there are not enough canines owned by TSA to 
accomplish this objective, we continue to urge TSA to establish 
a program whereby TSA would certify and audit vendors and their 
dogs, and we could then use these dogs for the screening of 
freight at the carrier's expense. TSA has taken the first steps 
in this direction, and we applaud them for that.
    But bureaucracy moves slowly, and our needs are becoming 
more urgent. We would, therefore, recommend that Congress 
encourage TSA to move the third-party canine program along as 
quickly as possible and also to provide the funding necessary 
to make this project a success. The establishment of this type 
of program for the primary screening is consistent with the 
recommendations of the ASAC that has on several occasions urged 
TSA to move forward with this program, which is probably a good 
transition into the ASAC work.
    The third-party canine program is only one of many 
initiatives studied by ASAC over the last several years. By way 
of history, while ASAC has existed since 1989, it was finally 
established as a permanent advisory committee when Congress 
passed the Aviation Security Stakeholder Participation Act in 
2014. Critically, at that time, Congress also exempted ASAC 
from the provisions of the Federal Advisory Committee Act, an 
exemption that has allowed committee members to discuss the 
details of security issues without the fear of public 
disclosure of sensitive information.
    ASAC membership is diverse. We have representatives from 
virtually every sector of the aviation community, as well as 
user and accident victim groups, and the Committee is supported 
by an array of subcommittees and ad hoc working groups that 
study specific issues that are either self-generated, requested 
by TSA, or sometimes required by Congress.
    At the present time, major initiatives include work by our 
new Security Technology Committee to prepare a report on the 
Checkpoint of the Future that will be presented to TSA this 
spring. That report was mandated by Congress. Over the past few 
years, our activities expanded rapidly, and we're into a whole 
number of areas.
    The final thing I'd like to mention in the last 10 seconds 
is that one thing has been obvious. Since I took over as Chair 
of the ASAC, we have had five either administrators or acting 
administrators. We're about to get a third administrator and 
the sixth person at the head of the agency.
    I would really like to suggest that that instability is not 
good for the agency, but, more importantly, it's not good for 
the security of the United States. We need stable leadership at 
the top of the agency, and I would strongly recommend that 
Congress consider the establishment of a five-year term for the 
Administrator of the agency so that whoever is the 
Administrator can have time to implement his programs.
    Thank you very much.
    [The prepared statement of Mr. Alterman follows:]

  Prepared Statement of Stephen A. Alterman, President, Cargo Airline 
    Association; and Chairman, Aviation Security Advisory Committee
    Mr. Chairman and Members of the Subcommittee:

    Good Morning. My name is Steve Alterman and I am the President of 
the Cargo Airline Association, the nationwide organization representing 
the interests of the all-cargo segment of the aviation community.\1\ I 
also have the honor of currently serving as the Chairman of the 
Aviation Security Advisory Committee (ASAC), the Federal committee 
established by Congress to advise the TSA Administrator on issues 
relating to all areas of aviation security. Thank you for inviting me 
to testify today.
---------------------------------------------------------------------------
    \1\ Association members include direct air carriers: ABX Air, Atlas 
Air, Federal Express Corporation, Kalitta Air and United Parcel Service 
Co., as well as Associate Members: Amazon, DHL Express, Memphis 
International Airport, Louisville International Airport, Ft. Wayne 
International Airport, John Glenn Columbus International Airport, 
Spokane International Airport and the Alaska International Airport 
System.
---------------------------------------------------------------------------
    The all-cargo carriers, and the customers and airports they serve, 
are a unique portion of the aviation marketplace. Our member carriers 
have annual revenues over $100 billion and employ upwards of one 
million workers worldwide.\2\ Customers depend on our services to 
transport high value, time sensitive, products such as medical devices 
and perishables, computers and other electronics, and automobile parts. 
In calendar year 2015, all-cargo carriers operated 89.2 percent of 
domestic revenue ton miles (RTMs) and 71.8 percent of international 
RTMs.\3\
---------------------------------------------------------------------------
    \2\ Survey of Association members.
    \3\ FAA Aerospace Forecast, 2016-2036, March 2016.
---------------------------------------------------------------------------
    In operating these services, the safety and security of our cargo, 
our facilities and aircraft, and our employees are of utmost 
importance. It is simply bad policy, and bad business, not to take 
these issues seriously. In the area of security, we strongly believe 
that the best security is achieved when government and industry work 
together to identify vulnerabilities and design and implement 
mitigation strategies. Over the past few years, TSA has also moved in 
this direction and we look forward to working with the Agency as the 
outcome-based model of regulation matures.
    In terms of current challenges, probably the most pressing need for 
the all-cargo carriers as business and cargo screening requirements 
expand is an ability to use third-party canines as a primary means of 
screening. The technology to screen freight in a manner consistent with 
the operational needs of the industry simply does not today exist. 
However, the use of canines can fill this gap. Since there are not 
enough canines owned by the TSA to accomplish this objective, we 
continue to urge TSA to establish a program whereby TSA would certify 
and audit vendors and their dogs who could then provide the canines to 
air carriers who choose to use them (at the carriers' expense). TSA has 
taken the first steps in this direction, but the bureaucracy moves 
slowly and our needs are becoming more urgent. We would therefore 
recommend that Congress ``encourage'' TSA to move the third-party 
canine program along as quickly as possible and to provide the funding 
necessary to make this project a success. The establishment of this 
type of canine program for primary screening is consistent with the 
recommendations of the ASAC that has, on several occasions, urged TSA 
to move forward with the program.
    The third-party canine program is only one of many initiatives 
studied by ASAC over the past several years. By way of history, while 
ASAC has existed since 1989, it was finally established as a permanent 
advisory committee when Congress enacted the Aviation Security 
Stakeholder Participation Act in 2014.\4\ At that time, Congress also 
exempted ASAC from the provisions of the Federal Advisory Committee Act 
(FACA), an exemption that has allowed committee members to discuss the 
details of security issues without the fear of public disclosure of 
sensitive information. ASAC membership is diverse with representatives 
from virtually every sector of the aviation community, as well as user 
and accident victims groups, and the Committee is supported by an array 
of subcommittees and ad hoc working groups that study specific issues 
that are either self-generated, requested by TSA, or sometimes required 
by Congress.
---------------------------------------------------------------------------
    \4\ https://www.tsa.gov/for-industry/aviation-security
---------------------------------------------------------------------------
    At the present time, major initiatives include work by our new 
Security Technology Subcommittee to prepare a report on the Checkpoint 
of the Future that will be presented to TSA this spring, and a 
continuation of the efforts by our Working Group on Airport Employee 
Screening to monitor TSA implementation of 28 recommendations designed 
to combat insider threats by tightening employee screening practices.
    Over the past few years, ASAC activity has expanded rapidly, with 
at least four full committee meetings each year and subcommittee 
meetings taking place between the full ASAC sessions. The communication 
between TSA and ASAC is constant and, while ASAC and TSA may not always 
agree on the way forward, I believe that both TSA and the Committee 
have developed a mutual respect for each other that has been extremely 
helpful in enhancing aviation security while at the same time 
recognizing the need to keep people and freight moving.\5\
---------------------------------------------------------------------------
    \5\ It should be remembered that ASAC is an advisory, not an 
oversight, body and our only function is to provide advice to the 
Administrator. It is wholly up to TSA to decide exactly how to respond 
to the recommendations presented.
---------------------------------------------------------------------------
    Finally, I would like to offer one suggestion for Congressional 
action in this session. In my opinion, one of the major impediments to 
positive change within TSA is instability at the top of the 
organization. In the last three years, there have been two 
Administrators and three Acting Administrators. When a new 
Administrator is nominated and confirmed, he or she will be the sixth 
head of the Agency in the last three years.
    To provide stability, and to allow the Administrator the time to 
implement changes that may be necessary, the TSA Administrator should 
be given a fixed five-year term similar to that currently held by the 
Administrator of the Federal Aviation Administration. Such an action 
would go a long way to providing the stability needed to accomplish the 
very important objectives of the Agency.
    Thank you very much. I would be happy to answer any questions.

    Senator Blunt. Thank you.
    Ms. Pinkerton?

           STATEMENT OF SHARON PINKERTON, SENIOR VICE

  PRESIDENT, LEGISLATIVE AND REGULATORY POLICY, AIRLINES FOR 
                            AMERICA

    Ms. Pinkerton. Thank you, Chairman Blunt. We're looking 
forward to working with you in your new role as the Chair of 
this Subcommittee.
    As you know, the safety and security of our passengers and 
our employees is our highest priority. When we're talking about 
the challenges of aviation security, I like to remind folks of 
the sheer scope and size of what aviation does for the economy 
and for the traveling public every day. Every day, U.S. 
airlines fly more than 2.2 million passengers, carry 50,000 
tons of cargo, operate 27,000 flights a day, and serve more 
than 800 airports in 80 countries.
    So given that sheer size and scope of aviation, it's 
critical for Congress and the administration to embrace risk-
based security principles. What that means is focusing on the 
highest threats and taking a multilayered approach. One-size-
fits-all 100 percent mandates are not the optimal response to 
address emerging threats, and it's certainly not the best way 
to use finite resources.
    Today's hearing is really well timed. We're approaching 
spring break and a very busy summer travel season, and if 
you're looking for ways the TSA can improve, you only need to 
look back to what happened last spring and summer. As this 
committee is very well aware, we had a meltdown at TSA 
checkpoints. Passengers experienced unacceptably long wait 
times at airports across the country. But I have to say if 
there's a silver lining to what happened last year, it was 
Administrator Neffenger's leadership. He exercised leadership, 
he went out, he sat with airlines in our operations center, and 
he learned about what it takes to run a 24/7 operation.
    Specifically, TSA came back and they established their own 
incident command center that tracks daily screening operations, 
shifts officers and resources around where they're most needed. 
So today, TSA, airlines, and airports here in D.C. and across 
the country sit together and collaboratively solve problems. I 
can't stress enough how successful this has been.
    TSA stepped up. Air carriers also stepped up. We hired 
private contractors to do queue management. We're spending 
money on innovation lanes. Congress also played an important 
role in solving last summer's crisis. You provided the needed 
budget and staffing flexibility in the CR. That said, last 
summer was a short-term, reactionary mitigation exercise, and 
we hope it won't be repeated.
    Looking forward to this summer, my question to the 
Committee is this: Is TSA ready for the summer surge of 
passengers? Do they have a plan, and do they have the needed 
resources? As Congress decides how to proceed beyond the 
current CR, we urge you to remember the importance of aviation 
security and facilitation. Inevitably, that discussion is going 
to turn around, whether additional resources are needed to meet 
the growing demand while ensuring security and facilitating 
travel.
    So when that discussion takes place, I wouldn't be doing my 
job if I didn't mention the fact that today, this year, $1.3 
billion worth of passenger TSA fees are being diverted to pay 
for the Federal deficit. Over the course of 10 years, that's 
going to be $13 billion. That money needs to come back to TSA.
    Another concrete step that must be taken to achieve 
efficiencies is to focus on expanding TSA Pre3 enrollment. As 
an industry, we're doing our part promoting TSA. We often pay 
for some of our flyers to get into the program. We allow them 
to use frequent flyer miles to get into the program. We're 
giving TSA space to set up walk-up processing stations.
    Again, this committee also focused on the PreCheck program 
and put provisions in the FAA extension bill. But much more 
needs to be done. Your chief recommendation to TSA was to move 
forward on a third-party program to get more people into the 
program. But, unfortunately, 2 months after you did that, TSA 
withdrew their RFP for the third-party program. We believe that 
program needs to go forward, but, frankly, I'm not sure it's 
going to move forward quickly enough, and as a result, we would 
like to recommend that TSA use the authority that they have now 
to make this process simpler.
    We think what we're facing is a bit of a hassle factor with 
the TSA Pre3 program. They're using a process that was actually 
designed for truck drivers and port workers. They need to 
simplify the process. They have the authority right now to do 
that.
    We've also recommended a broader marketing campaign so 
people are more aware. Let's think creatively. Can we waive the 
enrollment fee for the summer? Can we provide families with a 
family discount?
    Turning our attention to the insider threat, you all put 
provisions into the FAA extension bill. I'm just going to 
mention one thing that I think is an area where we're working 
well and making progress. Today, we are utilizing the FBI's Rap 
Back program, which enables us to continuously vet both airline 
and airport employees. There are about 60 airports that are in 
the program now, and we expect very high participation.
    Last but not least, I want to reiterate what Steve said 
about dogs. We love dogs. They are incredibly effective and 
efficient. We need more of them, especially in the cargo 
environment, but they can also help in the passenger 
environment.
    These are my recommendations, and I look forward to your 
questions.
    Thank you.
    [The prepared statement of Ms. Pinkerton follows:]

    Prepared Statement of Sharon Pinkerton, Senior Vice President, 
        Legislative and Regulatory Affairs, Airlines for America
    Good morning Chairman Blunt, Ranking Member Cantwell, and members 
of the Subcommittee. My name is Sharon Pinkerton and I am the Senior 
Vice President of Legislative and Regulatory Policy at Airlines for 
America (A4A). Thank you for inviting me here today to discuss aviation 
security and the Transportation Security Administration (TSA). The 
safety and security of our passengers and employees is our single 
highest priority and we take aviation security very seriously.
    Overview. We share a common goal with the TSA and work 
cooperatively and collaboratively with them every day through programs 
like Known Crewmember and TSA Pre3<SUP>TM </SUP>(amongst many others) 
in an effort to keep our skies safe and secure with a focus on both 
passenger and cargo security.
    When talking about the day-in and day-out challenges of aviation 
security it is important to be reminded of and to understand the depth 
and magnitude of what actually takes place and what is transported by 
air every single day. On a daily basis, U.S. airlines--

  <bullet> Fly more than 2 million passengers;

  <bullet> Carry close to 50,000 tons of cargo;

  <bullet> Operate approximately 27,000 flights; and

  <bullet> Serve more than 800 airports in nearly 80 countries.

    Given the vast geography and sheer numbers it is exceedingly 
important that we approach security in a smart, effective and efficient 
manner that best utilizes the finite resources available. This becomes 
even more imperative given the expectation that both passenger and 
cargo traffic will grow in the coming years.
    Risk-Based Security. The administration of risk-based security 
principles is of paramount importance to aviation security today and in 
the future. A risk-based approach recognizes that ``one size fits all'' 
security is not the optimum response to threats. Risk-based, 
intelligence-driven analysis has been a widely accepted approach to 
aviation security for some time. The 9/11 Commission, for example, in 
2004 called for thorough, risk-based analysis in evaluating aviation-
security issues.\1\
---------------------------------------------------------------------------
    \1\ In its final report, the Commission stated: ``The U.S. 
Government should identify and evaluate the transportation assets that 
need to be protected, set risk-based priorities for defending them, 
[and] select the most practical and cost effective ways of doing so. . 
.'' Final Report of the National Commission on Terrorist Attacks Upon 
the United States, at 391 (2004).
---------------------------------------------------------------------------
    One of our Nation's greatest challenges is to strike the right 
balance between managing risk and over-regulation. Enhanced security 
and the efficient movement of passengers and cargo are not mutually 
exclusive goals, thus government and industry must continue to work 
together to find pragmatic approaches to security that appropriately 
balance these issues. If we do not achieve that balance, we will lose 
passenger and shipper goodwill, clog up our airports, slow world trade 
and in fact diminish the level of security we have currently achieved. 
By utilizing and following risk-based principles we provide a security 
framework that can be more nimble and responsive to current and 
emerging threats and allows TSA to focus resources on high-risk 
passengers and cargo.
    Implementation of risk-based security in many ways comes from and 
is reflected in leadership at TSA. Most recently, former TSA 
Administrator Peter Neffenger was a strong supporter of risk-based 
security. In his own words--

        ``I am a strong proponent of a risk-based approach to security. 
        The vast majority of people, goods and services moving through 
        our transportation systems are legitimate and pose minimal 
        risk. The first necessary effort in pursuing risk-based 
        security is to identify the low-risk majority so that we are 
        not forced to apply our scarce resource capabilities to known 
        or unknown threats. The drawbacks of a single approach are 
        clear--severely limiting effectiveness and efficiency while 
        perhaps introducing vulnerabilities and opportunities for harm. 
        If we can understand the threats and identify the 
        vulnerabilities of our systems, then we can design our security 
        system to reduce the risk and close vulnerabilities.'' \2\
---------------------------------------------------------------------------
    \2\ https://www.tsa.gov/news/testimony/2015/07/29/testimony-tsa-
aviation-security-challenges

    We are hopeful that any TSA Administrator nominated by the 
President and considered by this committee and ultimately the Senate as 
a whole will continue a risk-based philosophy toward aviation security.
    Security Revenue Should Pay for Security. U.S. aviation and its 
customers are subject to 17 Federal aviation taxes and `fees', in 
addition to standard corporate taxes. In Fiscal Year 2016 alone, 
special U.S. taxes on airlines and their customers totaled 
approximately $23.1 billion--more than $63 million per day. Included 
within those numbers are revenues that are intended to support 
activities within the Department of Homeland Security. These `fees' 
include the--

  <bullet> September 11 TSA Passenger Security Fee--a $5.60 fee imposed 
        per one-way trip on passengers enplaning at U.S. airports with 
        a limit of $11.20 per round trip; the fee also applies to 
        inbound international passengers making a U.S. connection

  <bullet> Customs User Fee (CUF) -a $5.50 fee on passengers arriving 
        in the U.S. from foreign locations to fund inspections by U.S. 
        Customs and Border Protection (CBP); passengers arriving from 
        U.S. territories and possessions are exempt

  <bullet> Immigration User Fee (IUF)--a $7.00 fee imposed on 
        passengers arriving in the U.S. from foreign locations to fund 
        inspections performed by U.S. Immigration and Customs 
        Enforcement (ICE)

    As an industry we have seen an all too common trend of either 
directly or indirectly diverting the revenue collected from these 
`fees' toward deficit reduction or other sectors of the government. For 
instance, starting in 2001 the TSA passenger security fee had been 
limited to $2.50 per passenger enplanement with a maximum fee of $5.00 
per one-way trip. However, starting in July 2014, pursuant to the 
Bipartisan Budget Act of 2013, the fee was restructured into a single 
per-trip charge and increased to $5.60 per one-way trip. That increase, 
over the 10-year period from Fiscal Years 2014-2023, is projected to 
raise $40 billion in additional discretionary collections and $13 
billion for deficit reduction. Specifically, that law has diverted or 
will divert--

  <bullet> $390,000,000 for Fiscal Year 2014;

  <bullet> $1,190,000,000 for Fiscal Year 2015;

  <bullet> $1,250,000,000 for Fiscal Year 2016;

  <bullet> $1,280,000,000 for Fiscal Year 2017;

  <bullet> $1,320,000,000 for Fiscal Year 2018;

  <bullet> $1,360,000,000 for Fiscal Year 2019;

  <bullet> $1,400,000,000 for Fiscal Year 2020;

  <bullet> $1,440,000,000 for Fiscal Year 2021;

  <bullet> $1,480,000,000 for Fiscal Year 2022; and

  <bullet> $1,520,000,000 for Fiscal Year 2023.

    Airlines and their customers now pay $1.4 billion more in TSA 
security fees--$3.7 billion (2016) vs. $2.3 billion (2013)--for the 
exact same service. A similar story can be told in regards to customs 
user fees. The concept of a `fee' specifically charged to pay for a 
specific service has long been lost in our industry and they have all 
simply become taxes by another name.
    We would respectfully request this Committee do everything in its 
power to redirect TSA passenger security fee revenue back where it 
belongs: paying for aviation security.
    TSA Staffing Model. Last summer many travelers unfortunately 
experienced unacceptably long TSA screening lines at airports across 
the Nation. The root causes of those excessively long wait times was 
clear to many in the industry. Looking back at the previous summer in 
2015 there was a record setting travel season but the system did not 
experience excessive wait times. However, in 2016, as a result of 
reported TSA screening failures in a Department of Homeland Security 
(DHS) Inspector General's report, DHS significantly cut back on risk-
based security efficiencies without making an adjustment to staffing to 
accommodate those modifications.
    If there is a silver lining to the experience last summer it would 
be the collaborative discussions that took place under former 
Administrator Neffenger's leadership. As a result, airlines worked with 
TSA and airports to institute best practices. The TSA also established 
a National Incident Command Center that tracks daily screening 
operations and shifts officers and resources where they are needed most 
based on passenger volumes. The collaborative framework established 
during that time has continued momentum but we need to make sure TSA is 
transparent with their staffing model moving forward and has the 
resources available to meet demand.
    We would also like to thank Congress for your assistance and 
attention to the staffing crisis. The budgetary reprogramming 
flexibility provided to TSA was critical in getting the necessary 
resources where they needed to be. Even as we sit here today, the 
Continuing Resolution that TSA is operating under contains language 
indicating funds may be apportioned up to the rate for operations 
necessary to maintain not less than the number of TSA screeners 
achieved on September 30, 2016. That funding flexibility through the 
end of April is critical. However, there is uncertainty and concern on 
how staffing will be dealt with this summer. We have a situation where 
the staffing number will stay close to stagnate while passenger volume 
is expected to grow. This point further underscores the need to 
redirect the lost TSA security fee revenue back to TSA.
    TSA Pre3<SUP>TM </SUP>Enrollment and Expansion. As an industry, we 
are promoting TSA Pre3<SUP>TM, </SUP>and in many cases our members are 
waiving the cost for some frequent flyers, allowing them to use 
frequent flyer miles to pay for the cost and giving TSA space in 
airports to set up PreCheck walk-up processing stations. Airlines also 
work collaboratively with TSA on the Known Crew Member (KCM) program, 
which now processes 50,000+ crewmembers through separate access points. 
Ever since the events of last summer--where exceedingly long security 
lines received national attention--we have seen significant growth in 
the number TSA Pre3<SUP>TM </SUP>enrollees, but we need to dramatically 
expand the number as we are still a far cry from the 25 million plus 
that TSA aims to achieve.. We applaud the focus this Committee had on 
this issue in the last FAA extension but much more needs to be done. 
Some specific recommendations--

  <bullet> Fast-track a robust marketing campaign;

  <bullet> Consider adjusting or waiving the fee for enrollment in the 
        short term;

  <bullet> Consider whether fingerprints are really necessary, given 
        the cost and lengthy time that results; and

  <bullet> Fast track the third party enrollment options.

    TSA Pre3<SUP>TM </SUP>expansion not only improves security by 
growing the pool of known travelers, it also improves the travel 
experience. According to a recent survey of the American adult 
population conducted by Ipsos (commissioned by Airlines for America) in 
January 2017, 36 percent of 2016 flyers who were not enrolled in 
expedited screening programs reported that they were `very satisfied' 
with their overall air travel experience. Importantly, those enrolled 
in trusted traveler programs exhibited significantly higher levels of 
satisfaction, specifically--50 percent of flyers enrolled in TSA 
Pre3<SUP>TM </SUP>were very satisfied with 2016 air travel and 68 
percent of flyers enrolled in Customs and Border Protection (CBP) 
Global Entry program were ``very satisfied''.
    We would like to work with the Committee and TSA to find ways to 
significantly expand TSA Pre3<SUP>TM</SUP>.
    Cargo Security. Risk-based security is also of key importance on 
the cargo side of the commercial aviation industry. Overall, there is a 
need for a review and thorough revision of a number of programs that 
are currently not risk-based or outcomes focused, or that have not kept 
pace with the progress made in air cargo security over the past decade.
    In particular, we are interested in the further application of 
intelligence-based risk targeting similar to the Air Cargo Advanced 
Screening (ACAS) pilot program to other TSA programs, especially Known 
Shipper. The Known Shipper program requires an overhaul, as the way in 
which TSA currently administers it imposes significant operational 
burdens and market distortion without providing a corresponding 
security benefit. The standard security programs for both passenger and 
all-cargo air carriers are also in need of significant revisions to 
bring them in line with risk-based principles and eliminate gaps and 
inconsistencies with regard to the governing Code of Federal Regulation 
provisions. Last but not least, the greatly expanded use of canines for 
the primary screening of cargo in the U.S. is needed to complement 
existing cargo screening technology, to improve screening efficiency 
and efficacy, and to close particular commodity-specific gaps, 
commensurate with what TSA has already long recognized in the European 
Union.
    Employee Screening. As an industry we strongly support the employee 
screening improvements recently enacted by Congress, which clearly 
provide that, consistent with a risk-based security approach, TSA shall 
expand the use of Transportation Security Officers (TSOs) to conduct 
random physical inspections of airport workers. Specifically, as part 
of H.R. 636, the Federal Aviation Administration, Safety and Security 
Act of 2016 (P.L. 114-190), Congress also--

  <bullet> Directed TSA to consider expanding the scope of criminal 
        background checks for airport workers who receive access to the 
        secure area of an airport;

  <bullet> Allowed TSA to conduct real-time, continuous criminal 
        records checks through the FBI Rap Back service and via real-
        time access to additional terrorism-related databases 
        maintained by the intelligence community;

  <bullet> Expanded the use of enhanced, random, and unpredictable 
        physical inspections of airport workers in each secure area of 
        an airport and at each secure area access point; and

  <bullet> Updated rules to consider increased fines and direct 
        enforcement requirements for missing secure area badges.

    We are actively working collaboratively with TSA, airports and 
other stakeholders to implement the requirements in the law and also 
the 2015 Aviation Security Advisory Committee (ASAC)\3\ recommendations 
to address potential vulnerabilities related to the sterile areas of 
U.S. airports.
---------------------------------------------------------------------------
    \3\ The ASAC, a congressionally-mandated permanent advisory 
committee, provides advice to the TSA administrator on aviation 
security matters, including the development, refinement, and 
implementation of policies, programs, rulemaking, and security 
directives pertaining to aviation security. The committee is composed 
of individual members representing private sector organizations 
affected by aviation security requirements.
---------------------------------------------------------------------------
    The application of risk-based principles will be an important 
component of addressing employee screening. Moving forward we need to 
implement the statute and recommendations in a way that will increase 
the overall level of system-wide protection and lower risk without 
unnecessarily clogging up the system.
    Canine Teams. The use of canine teams has been a tremendous success 
in both the passenger and cargo security environment. We would advocate 
that Congress continue to support and expand the canine program. We 
also encourage TSA to consider the development of a certification 
program where canines could be used for primary screening of passengers 
and cargo.
    Importance of Commercial Aviation Sector. Airlines crisscross the 
country and globe every day carrying passengers and cargo safely and 
securely to their destinations and is an integral part of the economy. 
In 2014, according to the Federal Aviation Administration (FAA), 
economic activity in the U.S. attributed to commercial aviation-related 
goods and services totaled $1.54 trillion, generating 10.2 million jobs 
with $427 billion in earnings. As of December 2016 our industry 
directly employed nearly 700,000 workers and contributes 5 percent of 
our Nation's GDP.
    These facts underscore what is at stake and why we need to approach 
aviation security in a smart, effective and efficient manner and make 
sure we get it right. The daily collaboration and communication between 
TSA and stakeholders will play a vital role toward that goal.
    Thank you, on behalf of our member companies, we appreciate the 
opportunity to testify.

    Senator Blunt. Thank you.
    Ms. Day?

     STATEMENT OF KIM DAY, CHIEF EXECUTIVE OFFICER, DENVER 
                     INTERNATIONAL AIRPORT

    Ms. Day. Thank you, Chairman Blunt, Senator Wicker, Senator 
Inhofe, and our great senator from Colorado, Senator Gardner. 
Thank you for having me here today. It's an honor to be here 
and have an opportunity to thank you in person for the package 
of amendments you offered in FAA Reauthorization to address 
security issues at airports in the last Congress.
    I'm Kim Day, the CEO of Denver International Airport, and 
it's a very exciting time in Denver. We will soon announce we 
reached a record high of 58.3 million passengers in 2016, an 8 
percent increase over our previous record of 2015. We're the 
sixth busiest commercial airport in the U.S., and last year, we 
became truly multimodal as commuter rail service began 
connecting our airport to downtown Denver. We are the newest 
large hub airport in the U.S., and a growing airport.
    But we have our challenges, and one, in particular, is 
critically relevant to this conversation. Like most airports, 
we were not built with TSA checkpoints in mind. And with the 
modern pre-security threat, our configuration makes the 
location of our TSA checkpoints a vulnerability, as hundreds of 
passengers queue and TSA agents work in a pre-security area 
that is open from above. The recent deadly nonsterile area 
attacks in Brussels and Istanbul, as well as the attack in Fort 
Lauderdale, have been a call to action, a sobering reminder 
that we can wait no longer in addressing this critical issue. 
We feel the sense of urgency.
    To address security at our airport, we're using every tool 
at our disposal. We're in the final stages of negotiating a P-3 
to leverage private sector capital, experience and efficiency. 
We're reconfiguring our main terminal, streamlining the 
passenger experience, improving way-finding, and creating a 
greenfield site for new TSA security screening. We've sought 
expertise from stakeholders. We've reached out to TSA to work 
collaboratively on a new vision for our airport. But we feel we 
need your help as well.
    We don't simply want to move the same, frankly, antiquated 
systems as we overhaul our main terminal. There is better 
technology available. We know we can improve this experience 
and see the project as an opportunity to create a new model for 
modern American aviation security. About 18 months ago, we met 
with TSA leadership and offered ourselves as a laboratory of 
security technology and innovation, and I'm happy to report 
that TSA embraced our offer and signed an MOU to work together 
with us on innovation.
    Last August, we hosted a Security Innovation Summit at our 
airport, inviting innovative companies like Microsoft, 
Panasonic, and more than 100 others to teach us and TSA about 
currently available technology that we could deploy quickly. 
I'd also like to extend a special thanks to Senator Gardner for 
attending that Summit and learning with us.
    I want to talk about what we've learned in the last 18 
months of planning and highlight what this committee and 
Congress, in general, could do to hasten these improvements at 
our airport and airports across the country. TSA is working 
collaboratively with airports and our friends at the airlines. 
The agency has even begun to improve efficiency with systems 
innovations at several airports. Automated lanes are now 
installed at airports in Atlanta, Newark, Chicago, and Dallas, 
and the entire industry has worked to address long lines, as 
Sharon mentioned, last summer.
    We've worked hard to increase enrollment in PreCheck. We 
love PreCheck. In fact, Denver has the highest number of 
applicants for PreCheck of any U.S. airport. But if you've 
traveled to many major international airports, you understand 
that there is much more we could be doing. Simply reconfiguring 
and adding several spaces at the checkpoints where people can 
simultaneously empty their pockets and remove computers and 
shoes, or, in industry speak, multiple divestiture points, and 
designing screening systems that divert bags and people out of 
line when they alarm. All these would create dramatic 
improvements in efficiency and improve the passenger 
experience.
    Think about it. Right now, the whole line is waiting on you 
when you go through security, and if you are traveling with 
children or disabled or elderly, it can be particularly 
stressful. With simple steps like these, already in practice in 
Amsterdam Schiphol and London Heathrow airport, we can take 
that pressure off the travelers and allow TSA to focus on 
screening rather than line management.
    That's just the beginning. We would be grateful if this 
committee would encourage TSA to continue work with the 
Innovation Task Force. We see a future where we integrate 
existing technology, passenger segmentation, and systems 
integration so that the screening process begins the moment you 
book your ticket. Perhaps there's an opportunity to integrate 
parts of the screening process into the check-in process 
itself, and there's really no need to have an agent greet you, 
check your ticket, and look at your ID. That's a huge 
bottleneck in the system that uses critical labor resources, 
and it's more efficient and secure to automate that process 
using biometrics without compromising security.
    We ought to have a continuum of security as travelers 
interact with airlines, move through the airport, and process 
through security. We think PreCheck is just the beginning of 
adding filters to the security experience. We can layer on 
detection of large masses of metal and explosive detection in 
passive ways pre-checkpoint. We're not far from the day, 
because you've checked in online, so when you enter the 
airport, we could text a message saying, ``Welcome to DEN. You 
have a reservation at TSA screening lane number six at 10:43.''
    And if you're a vetted individual enrolled in PreCheck and 
a member of an airline frequent flyer program, TSA can filter 
you through a highly expeditious process. That means a far 
better experience for you. It allows TSA to focus on risk, and 
we think the future is multifactor, risk-based screening.
    I can't say enough about how strongly I encourage TSA and 
this committee to continue the work on the Innovation Task 
Force. Last year, the Committee added a series of airport 
security measures to the FAA authorization extension. Again, 
thank you for that. Among these measures was language 
establishing a pilot program within TSA to work with large hub 
airports, such as ours, to develop modern security systems. I 
strongly urge you to see that that pilot program moves forward 
and that the resources necessary to bring our security systems 
into the modern era are, indeed, allocated.
    There are costs associated with these innovations. I think 
the industry has demonstrated we're willing to partner with 
you, and we're willing to invest in the future with you. But to 
address this, we need additional resources beyond what we have. 
We are not keeping up with the rest of the world, but yet we 
actually have an opportunity to eclipse them in the next few 
years if we do this right.
    Thank you again for inviting me here today.
    [The prepared statement of Ms. Day follows:]

        Prepared Statement of Kim Day, Chief Executive Officer, 
                      Denver International Airport
    Chairman Blunt, Ranking Member Cantwell, and members of the Senate 
Aviation Subcommittee, thank you for your leadership on aviation 
security and for inviting me here today for the first Subcommittee 
hearing of this Congress. It is an honor for me to be here. My name is 
Kim Day, and I am the Chief Executive Officer of the Denver 
International Airport (DEN). Security is a critical focus and priority 
for airport operators, and I look forward to sharing an airport 
perspective on enhancing aviation security.
    I would also like to thank Senator Gardner who is a great champion 
for Colorado and the Denver airport. It is a pleasure to be here today 
to thank you in person for the efforts you led last year as part of the 
FAA Extension, Safety, and Security Act of 2016 (P.L. 114-90) to help 
foster innovation and drive forward-looking security solutions at our 
Nation's airports.
    I would like to focus my remarks this morning on a few areas: 
improving and modernizing our aviation security, addressing insider 
threats, enhancing employee screening and addressing funding 
challenges. I'd also like to touch on how we think Congress can help. I 
know these issues are important to the Subcommittee, and I would like 
to convey how important they are to airports as well. Security and 
public safety are critical components of an airport's mission, and we 
are very serious about addressing vulnerabilities. We have made great 
strides, but we are aware of the evolving threats. As one of the 
Nation's greatest international hubs, continued collaboration with 
Congress, TSA, and our industry partners is imperative.
    It is an exciting time at the Denver International Airport:

  <bullet> DEN served a record-setting 54 million passengers in 2015, 
        and will soon announce that we reached a new record high of 
        58.3 million passengers in 2016--nearly an 8 percent increase.

  <bullet> DEN is currently the 2nd fastest growing metro area in the 
        country; the airport has seen a 65 percent increase in 
        international arrivals since 2012.

  <bullet> DEN is the 6th busiest airport in the U.S.

  <bullet> DEN is the 19th busiest in the world.

  <bullet> DEN is the #1 economic engine of the State of Colorado and 
        the Rocky Mountain region, according to a study by the Colorado 
        Department of Transportation.

    <ctr-circle> More than $26 billion annually in economic benefit

    <ctr-circle> Directly employs 35,000 workers and another 155,000 
            indirect jobs

  <bullet> And last year we became truly multi-modal, as we began 
        commuter rail service connecting our airport to downtown Denver 
        in just 37 minutes.
Innovation and Modernization
    As the threats to airports and the traveling public continue to 
evolve, we at the Denver Airport have engaged in an innovative project 
to improve security for the traveling public. The goal at DEN is to 
improve security, efficiency, and the overall passenger experience.
    Denver is the newest large hub airport in the United States and 
with that we have a lot to be proud of, but we also have challenges. 
One in particular is relevant to this conversation. Like most airports, 
we were not built to house the current TSA security checkpoints. With 
the modern, pre-security threat, our configuration makes the location 
of our TSA security checkpoints a glaring vulnerability, as hundreds of 
passengers queue and TSA agents work in a pre-security area that is 
open and exposed from above.
    We have been discussing relocation of this important function and 
the associated passenger and employee queues for years, but the recent, 
deadly pre-security attacks at Brussels and Istanbul airports, as well 
as the attack at Fort Lauderdale, have been a call to action--a 
sobering reminder that we can wait no longer in addressing this 
critical safety issue. We feel a sense of urgency.
    Just hours after the recent shooting at Fort Lauderdale airport 
last month, my office received calls from both our Senators, expressing 
their concern over the safety of our passengers and employees. Please 
know that this is constantly on our minds and a part of everything we 
do each and every day at DEN.
    Senator Nelson: I want to offer my condolences to you on the attack 
at your airport. Mark Gale and the staff at Fort Lauderdale-Hollywood 
International handled that terrifying situation with much 
professionalism, and we have reached out to them to learn in order to 
inform our preparedness at DEN.
    To address security at our airport, we are using every tool at our 
disposal. We are in the final stages of negotiating a public-private 
partnership to leverage private-sector capital, experience and 
efficiency. We are reconfiguring our main terminal, streamlining the 
passenger experience, improving wayfinding and creating a 
``greenfield'' site for new TSA security screening. We have sought 
expertise from stakeholders and innovators. And we have reached out to 
TSA to work collaboratively on a new vision for our checkpoints. But we 
need the Federal Government's help as well.
    We don't simply want to move the same, frankly antiquated, systems 
as we overhaul our main terminal. We are doing everything we can and 
are committed to this effort but we also need Federal funding. Security 
is a Federal responsibility and we need to be able to lean on TSA as a 
real partner. We know we can improve this experience, and we see this 
project as an opportunity to create a national model for modern 
American aviation security.
    About 18 months ago, we met with TSA leadership and offered 
ourselves up as a laboratory for security technology and innovation. I 
am happy to report that leadership at TSA embraced our offer. We signed 
a Memorandum of Understanding with TSA to work together on innovation. 
Since that time, we have traveled with agency experts to visit a number 
of international airports that are already deploying innovations that 
make screening more efficient and secure.
    Last August, we hosted a Security Innovation Summit at DEN inviting 
more than 10 companies like Microsoft, CISCO, IBM, Panasonic, Cruise 
Line International, and Boeing to teach us and TSA about already-
available technology that we could deploy quickly. We appreciate that 
Senator Gardner was able to spend the day with us and actually listen 
in to our discussions. We learned much from the private sector and look 
forward to continuing the conversation as we know that working 
together, we can make airports safer, more secure and more efficient.
    We hope as we learn from our partners around the world, that we can 
bring home lessons learned to make the best decisions for DEN to 
accommodate our growing traffic and ever evolving threats.
    I want to talk about what we have learned in the last 18 months of 
planning and highlight what this Committee--and Congress in general--
could do to hasten these improvements at DEN and at airports across the 
country and within TSA. TSA is working collaboratively with airports 
and our friends at the airlines. The agency has already begun to 
improve efficiency with systems innovations at several airports. 
``Automated lanes'' installed at airports in Atlanta, Newark, Chicago 
and Dallas have reportedly shown significant increases in throughput.
    As the entire aviation industry worked to address long lines at 
several airports last year; airlines, airport and TSA all deployed 
additional resources in short order, and working in harmony.
    TSA has worked hard to increase enrollment in the PreCheck program. 
We love PreCheck. In fact, DEN has the highest number of applicants for 
PreCheck of any U.S. airport. But if you have traveled to major 
international airports, you will understand that there is so much more 
we can be doing.
    First, there's really no need to have an agent greet you, check 
your ticket and identification. That's a huge bottleneck in the system, 
it uses up critical labor resources, and it's more efficient and secure 
to automate that system without compromising security.
    Simply reconfiguring and adding several spaces at the checkpoint 
where people can simultaneously empty their pockets and remove 
computers and shoes- or in industry speak, ``multiple divestiture 
points'' and designing screening systems that divert bags and people 
needing secondary screening out of the line would create dramatic 
improvements in efficiency AND improve the passenger experience.
    Think about it. Right now, the whole line is waiting on you when 
you go through security. If you are elderly, traveling with children or 
disabled, this can be especially stressful. With simple steps like 
these--already in practice at Amsterdam Schiphol and London Heathrow 
airports, we can take that pressure off travelers and allow TSA to 
focus on screening rather than line-management.
    And that's really just the beginning. We would be grateful if this 
Committee would encourage TSA to continue the work it began with the 
agency's Innovation Task Force. We see a future where we integrate 
existing technology, passenger segmentation and systems integration so 
that the screening process begins the moment you book your ticket. 
Perhaps there are opportunities to integrate portions of the screening 
process into the check-in process itself.
    We ought to be able to have a continuum of security as travelers 
interact with airlines, move through the airport, and process through 
security. And we think PreCheck is just the beginning of adding filters 
to the security experience.
    We can layer on detection of large masses of metal and explosive 
detention in passive ways, pre-checkpoint. We're not far from a day 
when, because you've checked in online when you enter the airport, we 
could text you a message saying, ``Welcome to DEN, Senator Blunt. You 
have appointment reservation at TSA screening lane #6 at 10:43. And if 
you're a vetted individual enrolled in PreCheck and a member of an 
airline frequent flyer program, TSA can filter you through a highly 
expedited process.
    That means a far less stressful experience for you. It allows TSA 
to focus on risk, and we think the future is multi-factory risk based 
screening. I can't say enough how strongly I encourage TSA and this 
Committee to continue the work of the Innovation Task Force.
    There are costs associated with these innovations. I think the 
aviation industry has demonstrated that we are willing to partner with 
you. I know DEN is ready to invest in the future with you. But as we 
address the modern security threat, we will need additional resources 
to make these improvements.
    Today, we are not keeping up with the rest of the world, but have 
the opportunity to eclipse them in the next few years!
Challenges--Acquisitions and Funding
    I would like to address some of our challenges in getting our 
project across the finish line. We think TSA could improve the process 
for approving and deploying new technologies. Our current personnel-
heavy model of aviation security will be difficult to sustain over time 
given space and budget restraints. It is clear that newer technologies 
are available, and that such systems would improve both security as 
well as the passenger experience. At DEN, we are eager to help 
facilitate the deployment of new technologies. For its part, the 
Federal Government must employ more nimble and timely approval and 
acquisition processes to ensure that more efficient and secure systems 
are deployed as soon as possible. This Committee has been very helpful 
in driving TSA to make necessary improvements in this area.
    Funding is obviously a major challenge as well. As I mentioned, we 
have engaged both TSA and the private sector to partner with us on 
major changes to our terminal or what we call our Great Hall project. 
As an airport, we have limited resources and are leveraging everything 
we can in order to move this project forward. Both growth and security 
require capital investment. Airport financing has been a hot topic for 
years. I will touch on two specific ways Congress can help in this 
regard.
    For one, we would urge you to discontinue the practice of diverting 
TSA security fee revenues for non-security purposes, including deficit 
reduction. This year, we understand that $1.28 billion in TSA security 
fee revenue will be diverted away from security for other purposes. The 
estimates are that almost $13 billion over 10 years will go to fund 
other Federal Government activities. Clearly these resources could be 
put to good use to address numerous security challenges at airports.
    The Passenger Facility Charge (PFC)--a local airport user fee that 
is devoted specifically to local projects--is another important tool in 
our toolbox that we would like to use to meet security imperatives and 
upgrade airport infrastructure. Yet we are operating in a new world 
with an outdated funding mechanism. Airports operate under very strict 
FAA regulations that come with Federal grants for capital projects. The 
PFC is slightly more flexible and is often a critical part of an 
airport's security obligations. Yet the $4.50 cap of the PFC has not 
been raised in over 16 years and it has not been indexed to inflation.
    While airports have been advocating for a PFC increase for years; 
all efforts have been unsuccessful. I urge this Committee to think 
about how airports can make all the needed infrastructure and security 
improvements needed without adequate funding. DEN is a willing and able 
partner, but we are only one part of the equation. Security is a 
Federal responsibility and we need Congress to help us and TSA obtain 
adequate funding to meet our ever growing security challenges.
    Insider Threat and Employee Screening. As a member of the airport 
community, no one takes the prospect of an insider threat more 
seriously than we do. We are proud of our ongoing efforts in this 
area--to help educate our workforce, secure airport worker access, 
track airport employee credentials/badges--all in an effort to protect 
the public.
    DEN has worked hard to improve security. To this end, we have moved 
forward with several initiatives based on the Aviation Security 
Advisory Committee Working Group recommendations on Employee Screening 
and Airport Access Control. We have worked with TSA to reduce the 
number of access doors, increased employee inspections, and enhanced 
background screening for workers with secure area access.
    Airports remained concern with the idea of 100 percent physical 
screening of employees. The Working Group's concluded that 100 percent 
physical screening would not completely eliminate potential risks and 
could divert limited resources from other critical security functions. 
Recent studies have indicated that implementing a 100 percent physical 
screening approach would cost an estimated $15 billion annually and 
could cause significant operational disruptions. We support the 
approach recommended by ASAC that airport operators and TSA adopt local 
risk mitigation plans with an intelligence-driven, risk-based and 
layered approach to mitigate any threats. Resources are limited, so we 
must find a way to mitigate this threat without shutting down the 
national system.
    Pilot Program. Last year, this Committee added a series of airport 
security measures to the FAA Extension, Safety and Security Act of 
2016. Among those measures was language establishing a pilot program 
within TSA to work with large hub airports to develop modern security 
systems. TSA has not yet started this pilot, but we are one of the 
three airports TSA has chosen for this program. We are working with our 
good friends and partners at TSA, but we would ask that you see that 
the pilot program moves forward and that it has the resources necessary 
to bring our security systems into the modern era.
    I am grateful to have an audience with you today. We have a real 
issue to confront at Denver International Airport and I am confident 
that with your leadership we can capitalize on this opportunity and 
make improvements to the benefit of all U.S. passengers.
    Thank you.

    Senator Blunt. Thank you.
    Mr. Laustra?

  STATEMENT OF MARK LAUSTRA, VICE PRESIDENT, GLOBAL BUSINESS 
   DEVELOPMENT AND GOVERNMENT RELATIONS, ANALOGIC CORPORATION

    Mr. Laustra. Thank you, Chairman Blunt and members of the 
Subcommittee. I am testifying on behalf of the Analogic 
Corporation, a public company based in Peabody, Massachusetts, 
that employs over 1,700 highly skilled employees that are 
engaged in the design and manufacture of high-tech components 
for the medical and security screening industry.
    Our technologies can be found in lifesaving equipment, such 
as CT scanners, MRI machines, and state-of-the-art ultrasound 
systems. We are also a pioneer in security CT equipment, and 
since 9/11, our technology can be found in many of the deployed 
explosive detection systems as our nation achieved 100 percent 
screening of checked baggage as required by ATSA. We are now 
developing a next-generation checkpoint CT system for the 
purpose of automatically detecting explosives in passengers' 
carry-on bags.
    I have submitted written testimony that outlines the 
concerns of our industry in more detail. However, today, I'd 
like to bring to your attention the fact that we are in a 
pivotal period in U.S. aviation security. TSA continues to be 
the gold standard for aviation security around the world, but 
it risks falling behind. We at Analogic see Europe as a quickly 
evolving market whose airports are seeing the benefits of smart 
lane technology and advanced checkpoint screening systems 
designed to allow passengers to keep their liquids and laptops 
in their cabin baggage.
    And it's not just Europe that is sprinting ahead. Countries 
in the Asia-Pac region are also planning advanced technology 
checkpoint lanes in anticipation of more travelers due to high-
profile events such as the 2020 Olympic Games in Tokyo. These 
countries will begin to place large orders for advanced 
screening equipment and industry will follow these 
opportunities.
    I'm sure you are aware of the innovations being implemented 
at select U.S. checkpoints across the country. These continue 
to be financed by airlines and airports who have purchased 
smart lanes and gifted them to TSA. This model is not 
sustainable and will not go on forever. Unless this is 
addressed, many airports will not see the new technology that 
will help speed up passenger throughputs, increase detection 
capabilities of homemade explosives, and improve the passenger 
experience.
    The TSA's Innovation Task Force, an initiative formed under 
former Administrator Peter Neffenger and staffed with some of 
the brightest people at TSA, is the first real opportunity for 
TSA to advance promising new technologies quickly through test 
and evaluation and then to the acquisition phase. But the Task 
Force continues to be unfunded. It is not currently a program 
of record. In order to get us to the so-called ``checkpoint of 
the future,'' we need to provide proper resources and support.
    We hope the new TSA Administrator continues to lead the 
agency toward innovation. As you know, the agency has been 
challenged by constantly changing leadership. Some consistency 
of tenure at the top is needed to drive a true cultural change 
at TSA and to embrace innovation.
    This committee and your House counterparts have been 
immensely helpful in pushing TSA to be more transparent in 
their technology development and acquisition plans. In 
particular, industry welcomed the 5-year technology investment 
plan that was required under the 2014 Transportation Security 
Acquisition Reform Act. The first plan issued in the summer of 
2015 was a good first step, and the report is up for a 2-year 
update this summer. This update provides an excellent 
opportunity to get more clarity on where TSA intends to be in 
the future.
    I have included the detailed recommendations in my written 
testimony, but here is a quick list of those recommendations. 
The investment plan should include specific details on TSA's 
plans to replace aging equipment. The investment plan should 
provide additional details on the transition to next-generation 
technologies. The investment plan should provide specific 
details on new TSA programs and initiatives. The investment 
plan should include detailed R&D plans for aviation security 
equipment. And, finally, the investment plan should detail 
specific steps and ways that the TSA has improved the test and 
evaluation and overall acquisition process over the past 2 
years, along with plans for the future.
    TSA's recent reorganization should be detailed in the 
report update and how the reorganization will help improve the 
acquisition process. I know the Committee will work with us to 
find solutions to the U.S. aviation security system and equip 
the brave men and women of the TSA with the best screening 
tools available to keep our Nation safe.
    Again, thank you for this opportunity.
    [The prepared statement of Mr. Laustra follows:]

  Prepared Statement of Mark Laustra, Vice President, Global Business 
       Development and Government Relations, Analogic Corporation
    Chairman Blunt and members of the Subcommittee thank you for the 
opportunity to share my thoughts on potential areas of improvement in 
technology research, strengthening the TSA test and evaluation process, 
and bringing clarity and stability to technology acquisitions. Industry 
stands ready to work with you and the TSA in 2017 to improve the 
security and experience of the traveling public.
    I am Mark Laustra, Vice President, Global Business Development and 
Government Relations testifying on behalf of the Analogic Corporation; 
a public company based in Peabody, Massachusetts that employees over 
1,700 mostly highly skilled employees that are engaged in the design 
and manufacture of high tech components for the medical and security 
screening industry. Our technologies can be found in life-saving 
equipment such as CT scanners, MRI machines and state of the art 
Ultrasound systems. We are also a pioneer in security CT equipment, and 
since 9/11, our technology can be found in many of the deployed 
Explosive Detection Systems (EDS) as our Nation achieved 100 percent 
screening of checked baggage as required by the Aviation and 
Transportation Security Act of 2001. These EDS machines capture 
millions of data sets of each bag and use high powered algorithms to 
automatically detect explosives within seconds. We are now developing a 
second generation checkpoint CT system for the purpose of automatically 
detecting explosives in passenger's carryon bags.
TSA Leadership
    My testimony today will largely focus on TSA's five-year 
acquisition plan requirements of the Transportation Security 
Acquisition Reform Act (TSARA--P.L. 113-245), and Congress's important 
role moving forward. However, first and foremost, any meaningful result 
today and in the future will only be achieved when industry has an 
active and purposed seat at the table with government--not simply to 
receive information, but to generate a constructive dialogue on the 
threats we face and vulnerabilities ripe for exploitation by our 
adversaries. This will enable manufacturers to align private sector 
technology research and capabilities with current and future threats, 
as well as to ensure a viable domestic security technology industrial 
base is maintained.
    Industry has seen a laudable increase in engagement by TSA with the 
industry. We hope this trend continues under the new administration and 
especially since TSA has reorganized critical departments and job 
responsibilities. We are optimistic TSA understands how unpredictable 
purchasing cycles and multi-year timelines for equipment development, 
testing and qualification negatively impact both government and the 
industry.
TSA Acquisition Plan
    TSARA required TSA to develop a 5-year technology acquisition plan. 
Released in August 2015, the Strategic Five-Year Technology Investment 
Plan for Aviation Security (henceforth referred to as the ``Five-Year 
Plan''), was a positive step forward in accountability, cross-
jurisdictional collaboration and industry engagement. An essential 
document for industry planning, the Five-Year Plan provided some 
visibility into TSA's schedule for replacement and upgrades of existing 
equipment, and projected future capability needs. But it was just a 
first step. Industry needs a more precise roadmap to know where and 
when to invest. Ensuring our R&D efforts focus on the capabilities that 
will meet TSA priorities and address emerging security threats is 
critical to protect the citizens of this country. Greater partnership 
between TSA and industry will only help with this process.
    The Five-Year Plan can be leveraged to vastly improve TSA's 
acquisition process and, ultimately, the security of our aviation 
system. This Committee is in a unique position to monitor progress TSA 
is making on acquisition reform. In fact, the TSA was directed by 
Congress to update the Plan every two years, and a new report is due to 
Congress this summer. This is an excellent opportunity to for the 
Committee to ensure TSA is making necessary changes to: streamline and 
strengthen the test and evaluation (T&E) process; align budget requests 
to identified requirements; provide clear and consistent details on the 
threat profile to ensure industry is prepared to respond and TSA is 
making the right investments; and ensure meaningful engagement with 
industry.
Plan Details
    In the update, we encourage Congress to request more specific 
dollar allocations and investment detail from TSA tied to particular 
equipment type. The 2015 Plan generically suggests a $3.6 billion 
investment over the five-year period but fails to align those 
expenditures along actual programs, projects and activities. Further, 
there was virtually no mention of ``new'' acquisition as opposed to 
recapitalization. Finally, the acquisition plan should be based on the 
true needs of the TSA from a technology capabilities standpoint, not an 
expected budget framework.
    Since its release, industry has been challenged by constantly 
shifting and changing funding levels for equipment, particularly for 
the checkpoint program. For example, the Plan stated that the TSA 
intended to purchase 897 Enhanced Metal Detectors for checkpoint 
screening with FY16 funds. The Five-Year Plan also indicated the TSA 
did not plan to purchase any Boarding Pass Scanners (BPS) or Credential 
Authentication Technology (CAT) systems. However, the FY17 TSA budget 
justification materials indicated that the TSA intended to use FY16 
enacted funds to purchase 625 CAT machines and 175 BPS. Similarly, the 
FY17 request indicates that no EMD will procured in FY16. Late last 
spring the TSA announced that it was not moving forward with the 
procurement of 296 AT-2 machines in FY17.
    The TSA has provided justification for shifts in the figures 
provided in the Five-Year Plan versus actual procurements. However, 
these constant shifts have challenged industry in developing their 
business and staffing plans. Industry needs more certainty that the 
figures contained in the Five-Year Plan update are reliable and will 
stick, and at a minimum that Congress and industry be advised right 
away if any changes occur.
    Overall, industry is concerned about future recapitalization plans 
outlined in the Five-Year Plan that consist of peaks and valleys on a 
year by year basis. This makes resource allocation and staffing 
extremely challenging for manufacturers. A more consistent, level spend 
plan spread out over the five years would enable original equipment 
manufacturers (OEMs) to maintain consistency in staffing and 
manufacturing plans.
T&E Process Reform
    TSARA is an important first step to meaningful reforms, but while 
plans are great, it is the implementation of those plans that 
determines ultimate success. TSA outlined a number of initiatives 
underway in the initial Plan that seek to improve the acquisitions 
process, particularly relating to the development, testing, and 
qualification of security equipment. While TSA has done a good job of 
providing transparency into the process for industry, the fact remains 
that under the best scenario, it can take three years or longer to 
navigate a piece of equipment through the T&E process. While the bar 
must be high, this process impacts innovation, competition, improved 
security and efficiency, as both the government and industry expend 
undue time and resources navigating a complicated process. Industry 
encourages the TSA to outline the specific steps in detail that have 
been taken to reform the testing process in the Five-Year Plan update.
    Perhaps the single, most critical element for ensuring a successful 
test and evaluation process is the thoughtful development of equipment 
requirements. TSA and industry have struggled over the years with 
requirements that number in the hundreds, many of which have little 
relevance with the core detection and operational performance of the 
equipment. There is also the challenge of constantly shifting 
requirements, which cause significant disruptions in the testing 
process. Industry has urged TSA with each procurement to identify the 
handful of solid, core requirements to test capabilities. Industry 
again suggests the TSA outline how its reorganization will facilitate 
the development of better requirements to ensure a more efficient T&E 
and overall acquisitions process.
    In summary, shortening and streamlining equipment testing and 
collaborating with industry to identify recurrent chokepoints in the 
process and develop solutions would go a long way to getting newer, 
more advanced equipment into the field. It will provide a higher-degree 
of certainty to industry that the process isn't a series of roadblocks, 
but important, measurable checkpoints on a linear road. It will also 
help to foster more competition and effective use of government and 
industry resources.
S&T Investment & Interagency Collaboration
    The TSA's Five-Year Plan projects a more integrated engagement with 
the DHS Science & Technology Directorate. We urge the Committee to 
require more detail in the update to the Five-Year Plan to include 
specific examples and plans of S&T investment directly tied to 
fulfilling TSA identified capability gaps and future requirements; the 
subsequent transition of TSE from development to the T&E stage; and 
eventually acquisition. There are substantial opportunities to improve 
coordination between S&T and TSA to ensure the development of newer, 
higher-capability equipment that can be transitioned to a more 
effective testing process and fielded more expeditiously.
    Industry supports the thoughtful investment of research dollars, 
provided it is tied to addressing real threats identified by TSA as a 
capability gap and with an eye toward eventual and realistic 
procurement either by the government or as a requirement of government 
(as in the case of air cargo). Former Secretary Johnson's efforts to 
better align S&T Integrated Product Teams (IPT) under the Unity of 
Effort Initiative was a welcome first step. TSA needs to have a 
prominent role in the IPT effort, and ultimately should have a lead 
role in identifying key R&D needs and activities, as they are 
responsible for acquiring and operating equipment that will meet new 
and evolving threats. Further, industry input should be solicited early 
on in the process to ensure research goals align with achievable, cost-
conscious results.
Lifecycle
    Along with the T&E process and up and down procurement cycles, 
there are other notable challenges for industry. In 2014, with no 
industry input, TSA made a decision to expand the projected lifecycle 
of EDS equipment from 10 to 15 years. This had significant implications 
on company manufacturing and staffing plans. While the justification by 
TSA was that detection capabilities for known threats continues to be 
sufficient, the results are that future threat research and response is 
stifled and next-generation detection and high-speed capabilities are 
delayed.
    The lifecycle decision may have a very real budgetary and 
operational impact for TSA, as the ability to maintain and keep 
equipment fully operational and performing its mission after 10 years 
of service is increasingly difficult. This means more patches, 
difficulty finding replacement parts, more service calls, antiquated 
operating systems, and less efficiencies. Further, trying to bring 10-
15-year-old equipment into the Age of the Internet of Things is almost 
impossible as the equipment was designed and built to requirements that 
never envisioned cybersecurity, Internet connectivity or data 
conversion capabilities.
    Congress should closely watch TSA lifecycle equipment 
determinations for both delayed security impacts, operational cost 
increases and the very real implications for a viable domestic security 
industrial base. At a minimum, pushing equipment approval timelines to 
the right delays the next generation of equipment with increased 
capabilities, hinders current performance and stifles innovation.
    A market environment that engenders innovation is our best defense 
against improvised explosives and thwarting transportation threats. 
Certainly intelligence is key, but when this fails, if we are not 
encouraging technological innovation and next-generation investment, we 
will lose not only our technological edge, but the industrial base that 
goes with it.
Open Architecture
    Related, the Five-Year Plan touches on a desire by TSA to move to a 
networked system of equipment, or as former Administrator Neffenger 
referred to, a ``system of systems.'' A key component of this end-state 
is an open architecture which functionally seeks to better integrate 
technology applications and apply security countermeasures, ``at the 
system level rather than the component level''.
    Industry appreciates the discussion provided in the initial Five-
Year Plan on this system of systems approach and recognizes the 
security proposition of data-sharing. However, industry remains 
skeptical of this initiative without greater transparency on what could 
be a significant business disruption and potentially impact security 
efficacy. With a goal of implementing this concept within the next 5-10 
years, the constructive engagement with industry right now is vital.
    Industry encourages caution and thoughtfulness in an effort that 
appears to seek uniformity, commonality, and standardization amongst 
the various TSE, which could ultimately discourage the drive for 
innovation and newer capabilities. While industry supports the concepts 
behind risk-based, layered security, potentially surrendering 
intellectual property and company-sensitive algorithms developed 
through tens of millions of dollars of private sector investment 
generates another set of risks, including the potential degrading of 
the competitive nature and vibrancy of the industry. We look forward to 
discussing this in more detail with TSA in the future to reach a 
desired state of better capabilities and integration, while maintaining 
a viable industry base.
Transportation Security Equipment Funding
    As mentioned in the Five-Year Plan, TSA is transitioning into a 
technology sustainment mode focusing on recapitalization of over 2,400 
pieces of equipment that are reaching their end of life over the next 
five years. While process is key, it is also absolutely critical to 
ensure that recapitalization of security equipment is fully funded to 
keep our transportation system safe and the industry viable.
    Industry is grateful to Congress for its leadership in fully 
funding the FY16 DHS budget request for TSA Checkpoint Support and EDS 
Procurement/Installation. We encourage the Subcommittee to work with 
your colleagues to continue this trend while reducing the bureaucratic 
barriers for innovation and deployment.
    This Committee is encouraged to require future TSA budget documents 
to allot specific funding amounts to various technologies within the 
Checkpoint Support account and insist the newly revised Five-Year Plan 
provides a lookback on actual equipment purchased during the preceding 
three Fiscal Years. Because Checkpoint Support funding is not 
delineated to individual equipment types, industry has had difficulty 
ensuring Federal funds are truly reaching the intended target and 
consistent with previous documents. Further, previous EDS procurements 
have been significantly delayed or cancelled after significant vendor 
investment. Congress should insist on an accounting for these unspent 
funds and ensure they are carried over EDS replacement only.
    These details would go a long way to informing Congress on the true 
TSA operational equipment need as opposed to budget constrained funding 
requests.
Industry Recommendations to Improve TSA Wait Times
    Industry supports common sense solutions to help alleviate 
passenger wait times at screening checkpoints, both now and into the 
future. While short term fixes were necessary to address wait times 
last summer, the back-up at security checkpoints indicates deeper 
systemic issues that require sustained attention. The International Air 
Transport Association (IATA) predicts that the number of air passenger 
journeys globally will increase by four percent on average per year 
until 2034, more than doubling the overall number of trips taken as of 
2014. So while alleviating the immediate pressure on the checkpoint 
screening process is a necessary objective, without turning towards 
medium and long term solutions, a piecemeal approach will only mask 
underlying issues. To that end, we suggest TSA and the Congress 
consider the following action items:

  1) Develop and Implement an R&D Checkpoint Investment Plan:

        We support former DHS Secretary Johnson's announcement that the 
        Department will ``double down'' on R&D investments for 
        technology that will improve passenger processing. Given 
        current conditions, TSA should immediately reassess its R&D and 
        procurement strategy to identify upgrades to current technology 
        or new technologies that will significantly improve the 
        passenger screening process, both in terms of processing time 
        and detection capabilities. Some short-term options for 
        consideration include investments in security lane design and 
        reconfiguration; remote screening; equipment to automate the 
        checkpoint process; immediate development and deployment of 
        advanced algorithms to improve the throughput and detection 
        capabilities of fielded passenger and carry-on baggage 
        screening technologies; and a plan to advance the deployment of 
        next generation CT scanners for the checkpoint.

  2) Improve Equipment Qualification and Acquisition Practices:

        Opportunities to improve the passenger screening process have 
        been mired by a lengthy equipment qualification and acquisition 
        process. Many new technologies and technology upgrades are 
        languishing--often for over three years--in the test and 
        evaluation phase and hampered by unnecessary administrative 
        delays, retesting of non-security equipment elements, and 
        poorly defined requirements. DHS and TSA should immediately 
        develop a plan to improve transportation security equipment 
        (TSE) acquisition by streamlining the test and evaluation 
        process; allowing new technologies to be tested and trialed in 
        the field; and setting strict deadlines on administrative 
        decisions.

  3) Designate Specified Lane Design Funding and Pre-Screening 
        Improvements:

        Increasing TSO staff levels will not decrease wait times alone 
        without significant changes to lane configuration and passenger 
        cueing strategies, where possible. Congress should dedicate 
        additional funding to reconfigured lane design and throughput 
        improvement. This investment will help augment staffing needs 
        and allow TSA to think strategically about how to manage 
        passenger volume increases in the future while reducing airport 
        vulnerabilities. TSA should also consider mobile security 
        checkpoints designed to randomly screen passengers and 
        employees with hand-held explosive trace detection, portable X-
        ray systems and K-9 units to reduce airport chokepoints at 
        centralized screening locations.

  4) Revise TSA Equipment Training Protocols and Certifications:

        While TSA is examining its current training protocol, the 
        agency should consider allowing manufacturers greater direct 
        input and engagement with trainees on how to efficiently and 
        effectively utilize screening equipment both for speed and 
        detection. In most instances, equipment training is handled by 
        third parties. TSA should look to establish a certification 
        process with the manufacturers to ensure TSOs fully understand 
        the functionality and capabilities of each component.

  5) Survey Existing TSE Fleet and Replace Aging Equipment:

        The TSA manages over 15,000 checked baggage and checkpoint 
        screening technology devices. As equipment is extended past 
        warranty and reaches and exceeds its manufacturer recommended 
        useful life, airports occasionally experience increased wait 
        times and delayed baggage due to greater service and 
        maintenance needs. TSA should more routinely refresh and 
        recapitalize equipment, with a specific focus on those systems 
        that have limited capability to be upgraded to meet current and 
        future requirements, as well as those at or nearing their 
        lifecycle replacement timeframes. This will reduce maintenance 
        expenses, limit equipment downtimes, and ensure higher fidelity 
        and capacity screening equipment is in the field.

  6) End the Raid on Aviation Security Fees:

        Pursuant to the Bipartisan Budget Act (BBA) of 2013, upwards of 
        $15.8 billion in security fees paid for by travelers, is due to 
        be diverted to deficit reduction and other non-security 
        activities over 12 years. This sort of burden shifting is risky 
        at any time; however, given the increased passenger volumes and 
        demand on screening infrastructure and the TSA, it seems only 
        prudent to direct these funds to targeted investments in 
        security technology and TSA workforce training.
Closing
    As equipment begins to phase out, new technologies must be 
researched, developed and purchased. New threats cannot be resolved 
with antiquated solutions.
    Industry encourages continued, vigilant oversight. However, we 
would encourage the Congress to be mindful of new legislation that 
could serve to bog down an already ponderous acquisitions process with 
more requirements and procedures. This could serve to add additional 
delays and costs. We recommend Congress work with TSA and industry to 
find efficiencies and make this complicated process more streamlined 
and effective. Doing so will save time and money, while providing OEMs 
and emerging companies more certainty to develop and produce a new 
generation of equipment with better capabilities to meet ever-evolving 
threats.

    Senator Blunt. Thank you. Thank you for your testimony and 
for all of you being here.
    Mr. Alterman and Mr. Laustra, are you both on the Aviation 
Security Advisory Committee?
    Mr. Laustra. I am not.
    Senator Blunt. You're not.
    Mr. Alterman. I am.
    Senator Blunt. And do you serve on any advisory committee 
at all for TSA?
    Mr. Laustra. I'm Chair of the Security Manufacturers 
Coalition.
    Senator Blunt. Of the coalition?
    Mr. Laustra. Yes.
    Senator Blunt. Thank you.
    Let's go to Ms. Pinkerton and Ms. Day. You know, one of the 
things that I thought we were able to have the most success on 
last year with the FAA reauthorization, disappointingly short 
as it was, was a lot of new guidance to what we thought TSA 
could do in a better way in security and helping to encourage 
more people to get in the PreCheck program. I'm not sure where 
we need to be in those areas, but a lot of that was cooperative 
in trying to figure out how the private sector could be a more 
helpful partner or vice versa in this.
    In terms of PreCheck, how do you think PreCheck is working? 
And if it is working, what can we do to get more people in it? 
Ms. Pinkerton and Ms. Day?
    Ms. Pinkerton. I'll take a shot. Is it working? I'll take a 
shot at that first. Thank you, Chairman Blunt. The PreCheck 
program needs to be expanded, and you're right. The FAA 
extension bill had several provisions directing TSA on how to 
expand the program. Their goal is to have 25 million people in 
the program. Right now, they've got just under 10 million 
people. I think there's just under 6 million in CBP's Global 
Entry, and then just over 4 million in TSA's Pre3 program.
    One of your most important ideas and direction to TSA was 
to get a third party involved in marketing the program to get 
more people into it. But as I mentioned, 2 months after your 
bill passed, TSA withdrew that RFP, and as a result, we're very 
concerned that the government procurement policies that are so 
complicated and time consuming are really holding back from 
getting more people into the program.
    So our recommendation is, yes, you need to continue to 
encourage TSA to move forward with that third-party program. 
But I think they need to use the authority that they have 
today. The process is too complicated. There are too many 
steps. There's a certain hassle factor that goes along with 
getting into PreCheck. We know who our market and our target 
community is. They're frequent flyers. They're pretty 
sophisticated, but they're also busy.
    So our recommendation is for TSA to use their authority, 
simplify the process right now, they're using a process that 
was designed for truck drivers and port workers. That's not who 
we're talking about here. We're talking about busy air 
travelers. So that's one thing. But we also want TSA to think 
more creatively. Can we give families a discount for the 
summer? Can we waive the fee? We're trying not to micromanage 
their business, but there has to be a way to get more people 
into the program more quickly.
    Senator Blunt. Ms. Day?
    Ms. Day. I agree with everything Ms. Pinkerton said. Let me 
say that everybody who uses the PreCheck program loves it. So 
we just need to get the word out.
    One thing that's really interesting--last year, Microsoft 
signed up their entire workforce for PreCheck. If we could get 
more corporations to realize that it is worth them paying for 
the program to allow their employees to have a better 
experience through airports, it would be great. So that's just 
one thing I would add--would be encouraging more corporate--
more companies to participate that way.
    I'd also say in Denver, TSA actually opened a remote 
location where you can get your PreCheck done. It's downtown, 
and it's terrific. It has increased their enrollment.
    Senator Blunt. From the point of view of an airport 
manager--just the logistics of PreCheck and screening, 
generally--how much input are you allowed to have into the 
number of lines open, when they're open, where they're located? 
Talk to me about that a little bit.
    Ms. Day. Our operations group meets with TSA on a daily 
basis to review our loads during the day and the amount of 
passengers we're expecting, and they do work on trying to 
control that and making it the best that it can be, based on 
the availability. But in the end, it is the Federal security 
director's decision.
    Senator Blunt. Right.
    Senator Wicker, you and I may go vote after others get 
here.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you.
    Well, on the process designed for truck drivers and port 
workers, is it the screening process itself or the application 
process that was designed for truck drivers and port workers, 
and how so?
    Ms. Pinkerton. I think it's both, Senator. I think, you 
know, the application process has several steps. That needs to 
be simplified. But it's also the back end, the processes that 
are done, what data is used, and how that moves forward. And I 
don't want to micromanage the way TSA does this. I don't have 
all the solutions. But I do know that it's too complicated. It 
can be simplified, and I think it merits your oversight.
    Senator Wicker. Well, obviously, it is being simplified in 
Europe. So let me start with Mr. Laustra, and then anyone else 
can jump in.
    Why are we behind Europe? Are they smarter than us? Are 
they less patient standing in line than we are? Why are they so 
far ahead?
    Mr. Laustra. Well, one of the problems, as I see it--and 
some of the panelists have talked about--is the leadership at 
TSA. TSA is always in a start-stop mode. Whenever there's a new 
Administrator, there's a new set of initiatives with no 
continuity. For example, when Administrator Hawley started 
Checkpoint Evolution back in 2009, we transformed four lanes at 
BWI airport with smart lane technology, and when he left, the 
checkpoint evolution program fell off TSA's radar, and we 
dismantled those smart lanes. So, I mean, that was back in 
2009.
    Senator Wicker. So it's a lack of continuity from----
    Mr. Laustra. A lack of continuity, exactly right, yes.
    Senator Wicker. Anything else?
    Mr. Laustra. Well, the Innovation Task Force is a great 
first step. I mean, we need to get that funded. Innovation 
Lanes are a great place to test new technologies at an actual 
checkpoint and really provide the impetus for the checkpoint of 
the future so we can test these new technologies.
    Senator Wicker. Ms. Day?
    Ms. Day. If I could add, I also think it's a procurement 
issue. We are very slow to certify equipment. Some of the 
equipment that is currently utilized in Amsterdam is right now 
in the TSA's certification program. But it seems to take a 
great deal of time to get those things done. And it's also the 
way we're funded. In Amsterdam, the royal family basically 
said, ``We want this technology.'' They went out--there was a 
sole source, and it was put in place, and that's just not how 
the funding and the procurement works here in this country.
    Senator Wicker. OK. Amsterdam. That's one country.
    Ms. Day. Yes.
    Senator Wicker. Are they ahead of the rest of Europe?
    Ms. Day. They're probably leading the pack. London Heathrow 
has also a great system. It was done through privatization. 
They hired a private company, Ferrovial, to come in and operate 
their facility at Terminal 2 and Terminal 5, including standing 
up and operating the security there.
    Senator Wicker. Now, on this procurement issue you 
mentioned, Ms. Day, do you think we need a statutory change 
there, or does there just need to be another mindset at the 
agency?
    Ms. Day. I don't know the solution to it, Senator. I wish I 
did.
    Senator Wicker. Anybody else?
    Mr. Alterman?
    Mr. Alterman. I hesitate to say this, because I'm not sure 
how to do it. But I think it needs a statutory change. I don't 
think that in the current bureaucratic environment even 
leadership can overcome the burdens of meeting the requirements 
of procurement. I think that runs across TSA, I think it runs 
across the FAA, and I think it runs across a whole lot of other 
agencies. By the time you get technology certified, you're on 
to the next technology.
    Senator Wicker. So, Mr. Laustra, the testimony here is that 
there's state-of-the-art equipment out there, and the rules 
under our current statutory law slows us down there. Now, you 
ought to know a lot about that issue.
    Mr. Laustra. So the process does take way too long, and 
it's because TSA has a very robust process of certifying new 
equipment and integrating, for example, these new smart lanes 
with x-ray technology.
    Senator Wicker. How does a smart lane work, Mr. Laustra? 
You don't have to take your liquids out and you can keep your 
laptops?
    Mr. Laustra. No, sir. The smart lane is just a conveyance 
system. So you have a multiple divest station so multiple 
passengers can divest at the same time into a bin. Then you 
have a divert process built into the system that diverts 
suspect bags off the primary conveyor allowing cleared bags to 
move through to the passenger. And finally, you have a bin 
return system that automatically sends the empty bins to the 
front of the smart lane system.
    Senator Wicker. OK. Did I hear one of you say that there is 
a process, or ought to be, where you don't have to take your 
liquids out and your laptop?
    Mr. Laustra. Yes. That's in the new X-ray technology that 
is designed to allow passengers to keep their liquids and 
laptops in their bags.
    Senator Wicker. So the X-ray says that's just a bottle of 
water and we're not going to worry about that, and the X-rays 
says that's a----
    Mr. Laustra. No. Once you----
    Senator Wicker.--That's a legitimate laptop and we're not 
going to worry.
    Mr. Laustra. So in Europe, with the smart lane technology, 
we're seeing a 20 percent to 30 percent increase in passenger 
throughput. When you place a checkpoint CT system into that 
checkpoint, airports are experiencing up to a 50 percent 
passenger throughput improvement which also improves the 
passenger travel experience. So it's an optimized solution, 
having the smart lane and the checkpoint CT system.
    Senator Wicker. Great.
    Thank you, Mr. Chairman.
    Senator Blunt. Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell [presiding]. Thank you, Mr. Chairman. I'm 
going to submit a statement for the record.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Thank you Mr. Chairman, and I would like to take this chance to 
congratulate you on your new role as Chairman of this subcommittee. We 
have much to do this year to address issues regarding aviation safety 
and security, infrastructure, NextGen implementation, and a host of 
other issues. I look forward to working with you on an FAA 
Reauthorization bill that will move our Nation's aviation policy 
forward and allow the industry to prepare for the tremendous growth 
that we know is ahead of us.
    I would like to thank our distinguished panel for being here to 
share both their testimony and their expertise with the subcommittee. 
Our panelists deal with aviation security on a daily basis, and I 
appreciate the opportunity to hear their insights on what is working in 
the aviation security system and what needs to be improved.
    In my own state of Washington, Sea-Tac airport has been the fastest 
growing large airport in the country for three consecutive years thanks 
to tremendous growth in our economy. To keep that growth going in 
Seattle and across the country, we need to make sure that when 
passengers arrive at the airport, they are not met with the nightmare 
that they faced last year: security lines well in excess of an hour--
and sometimes much longer--at the Nation's busiest airports.
    I was thankful that Administrator Neffenger payed close attention 
to this problem last year, and agreed to allow local training of new 
Transportation Security Officers in order to get adequate staff trained 
and mobilized quickly in order to address the problem. TSA has also 
acted proactively to hire additional staff to deploy to the most 
severely impacted airports, and the results have shown.
    Airports and airlines also deserve credit both for their response 
to last year's situation, and for the steps they've taken to look 
ahead. Last year, airlines and airports acted quickly and creatively, 
and at their own expense, to ease the burden on their travelers. They 
have also taken steps to improve checkpoint efficiency and technology; 
and launched apps and installed signs to direct travelers toward the 
checkpoints with the shortest lines.
    These are all important steps, because airports play an absolutely 
vital role to our economy. To keep the economy moving forward, we need 
to maintain the free flow of goods and passengers through our system, 
while also being sure to maintain the highest level of safety and 
security.
    To keep passengers safe, and to keep lines moving, TSA employs a 
number of tactics and technologies.
    Risk-based security programs like PreCheck allow travelers who have 
submitted to a thorough background check to move through expedited 
screening lines, keeping shoes on and liquids in their bags. PreCheck 
is a key component of a risk-based system, as it allows for pre-vetted 
passengers to move more efficiently through security checkpoints. I 
hope that TSA will continue to work to grow the PreCheck program, 
particularly by taking advantage of 3rd party firms to enroll and 
collect the necessary data from passengers, as this committee has 
called for.
    The continued development of automated screening lanes, which both 
improve the screening process while also adding up to 30 percent more 
capacity to screening lanes. While these lanes are being rolled out in 
a few airports across the country, I would like to see TSA and their 
Innovation Task Force do more to work with airports and airlines to 
develop and incorporate technology into checkpoints that will add to 
security and save time for passengers. This includes improving the 
procurement process to make sure that automated checkpoint technology 
can work with a wider array of equipment which is already installed at 
checkpoints.
    Finally, passenger screening canines are a critical tool in terms 
of both effectively screening passengers and keeping lines moving. 
Canines drastically increase the output of security lines, and it is 
well known that when it comes to sniffing out harmful materials, there 
is no match for the nose of a well-trained dog.
    While canines are effective, we need more of them to allow them to 
deliver the maximum possible benefit to the system. At Sea-Tac, for 
example, we only have five out of our allocation of 10 passenger 
screening canines. While the TSA's training center at Lackland Air 
Force Base in Texas is doing good and valuable work, passenger 
screening canines are a tremendously valuable asset, and the demand is 
not being matched by the supply. This is an issue that I am sure this 
committee will be paying close attention to going forward.
    Thank you, Mr. Chairman. I look forward to hearing from our panel.

    Senator Cantwell. Sorry I wasn't here earlier, between 
votes and a nominee in the Finance Committee. But one of the 
things that I wanted to see if you had comments on--obviously, 
air travel time at our airports is critically important, moving 
through the TSA process. One of the things we have found in 
that process is that these extra canine units have been very 
helpful, and they have--I mean, I'm asking because so many of 
you represent the air infrastructure and participate in lots of 
these issues as it relates to helping to move the traveling 
public.
    But have you taken positions on this issue? What do you 
think about our need to help expedite this part of our 
infrastructure so that we can keep flights safe and moving in a 
timely fashion?
    Ms. Pinkerton. Good morning, Ranking Member Cantwell. My 
name is Sharon Pinkerton with A4A, and both Steve Alterman and 
I in our testimony covered the fact that we love dogs. They are 
incredibly effective at sniffing out bad things, and they're 
very, very efficient. But TSA has limited resources right now 
with respect to canines. They've got about 187. I think they're 
shooting to have 500. Those dogs are incredibly effective in 
both the all-cargo environment but also the passenger 
environment in aiding passengers to get into the PreCheck line. 
So we're very supportive of more canine units.
    Senator Cantwell. Part of the issue is, right now, all the 
certification is through one entity. Should we up the ability 
to certify these dogs to more areas of the United States?
    Mr. Alterman. Obviously, yes. There simply are not enough 
dogs that are certified by the TSA to do the job that's 
necessary in both the passenger and the all-cargo environments. 
The dogs in the passenger environment have proven extremely 
useful in enabling people who may not have been enrolled in 
PreCheck to get into the PreCheck lines, because the dogs are 
so efficient in sniffing out potential explosives.
    It's absolutely crucial in the all-cargo environment as our 
businesses expand and our screening requirements expand. The 
technology to screen freight as it moves in the all-cargo 
environment simply isn't there, and we absolutely need dogs to 
help us meet our requirements. Just as an example, the 
International Civil Aviation Organization just passed a new 
standard that will require us to shift our export operations to 
screen a whole lot more freight, which we will not be able to 
do and still meet the service needs of our customers unless we 
get dogs to do primary screening.
    To TSA's credit, after long stops and starts, they put out 
a request for information on how such a program would work. The 
industry responded. I'm not sure how many responses there were, 
but there were many responses to it, and TSA has now 
established an industry day for next Wednesday, the 22nd, where 
the industry will meet with TSA to try to chart a path forward. 
It's been too long coming, and it has been slow. But I'd rather 
look at the future rather than the past, and, hopefully, this 
will expedite things.
    Ms. Day. If I could just add one thing?
    Senator Cantwell. Yes, go ahead.
    Ms. Day. I think, you know, we all talk about how wonderful 
the dogs are in the TSA checkpoint. But I also think there's an 
application for dogs pre-security. The dogs are passive, and if 
we had enough dogs, we could use them in a more robust way in 
our airports to actually roam and make detections before you 
actually get to that checkpoint.
    Senator Cantwell. That's why I was bringing that point up, 
because we heard from experts after the Belgium bombing that 
the dog system would have been able to smell those individuals 
coming into the airport and they would have been alerted. So 
since so many of these--whatever you want to call them--ticket 
areas have now become targets as well, having that exterior 
activity--we've had so many airports tell us that they--police 
on duty, TSA--have seen people literally turn around and leave 
when they see the dogs. So it is almost--they don't know what 
people are up to. They just know that when they see the dogs, 
people are saying, ``Oh, I'm not staying here. I'm leaving.''
    So that, in and of itself, is a great deterrent, and, 
obviously, its ability to detect people in line as well. So 
both of those are great benefits.
    Yes, go ahead.
    Ms. Day. Just one anecdote. We have a dog therapy program 
at our airport as well. We have 60 dogs that wear DEN vests and 
roam around, and the TSA has said they love it because 
passengers don't really know if those dogs are sniffing dogs or 
not.
    Senator Cantwell. Oh, very interesting. Well, I definitely 
think with our success and, obviously, how air transportation 
has remained a--or the facilities themselves or the traveling 
public a target, I definitely think we need to figure out how 
to put this canine program on steroids and build the 
infrastructure, because it is such a resilient part of what it 
takes to build a system of security. So thank you very much.
    Senator Gardner is next.
    Senator Inhofe. OK. Go ahead.
    Senator Cantwell. I'm going with what Senator Blunt's staff 
has given me, but I'm happy to----

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Madam Chair, I'm happy to yield to my 
senior colleague from Oklahoma, who I hope will continue to fly 
through DIA if I proceed here.
    [Laughter.]
    Senator Gardner. Senator Inhofe, thank you, and Senator 
Cantwell, thank you.
    Welcome again to all the witnesses, particularly Kim Day 
for her work at DIA. In your testimony, you talked about the 
opportunity for Congress to work with the TSA on Innovation 
Task Force. I have a letter that we'll be sending later today 
expressing our willingness and desire to push the TSA on making 
sure we increase efficiency, developing and testing prototypes 
for new screening technologies according to the SCREEN FAST Act 
that we put into law last year through the FAA reauthorization 
or extension, also encouraging them to work with Congress on 
the innovation ideas and making sure that they implement the 
Task Force as quickly as possible.
    So I was looking at some numbers. Stapleton airport, who 
many people across the country remember, peaked in the 1990s, I 
think, at 30 million passengers, and today, DIA is approaching 
60 million passengers, so doubling since the 1990s the ability 
of passengers, international and domestic, to go through Denver 
as one of the major hubs, as you mentioned, largest commercial 
hub--newest airport of the large hubs, what you talked about in 
your testimony.
    So I want to thank Senator Thune for his work on the SCREEN 
FAST Act to include it in the FAA bill and the work that we did 
together to make this possible, to focus on efficiencies, 
reducing vulnerabilities, and security. Could you talk a little 
bit about how Denver has collaborated with TSA and the private 
sector and the stakeholders to move forward with this large-
scale security project--because it is very significant--and how 
this could be a model for other airports?
    Ms. Day. Thank you, Senator. Yes, I'm happy to talk about 
it. So you all may not know, but we're actually in the middle 
of a program to completely relocate TSA from its current 
position to a new position that is more secure in our airport. 
The idea is not to move what we have today, but to create 
something new when we move it.
    So we reached out to TSA. We signed an MOU with them and 
have been working with them. We actually went with them to see 
Amsterdam and to see Heathrow, to see the new model in Cologne, 
and are trying to also look at the new technology that Mr. 
Laustra talked about to add passive security, filtering as you 
get to the checkpoint.
    So what we're looking at is a checkpoint that would be very 
different than what you see today. You would actually use 
biometrics with your ID to assign you to a particular lane 
based on your risk. So it is a risk-based view of a checkpoint, 
which we've not seen today. I'd also like to say we are in the 
pilot program with TSA. We're going to start testing--some 
field testing of biometric ID as early as this fall, and we're 
real excited about that.
    Senator Gardner. Thank you. And could you talk a little bit 
more about the public-private partnerships you described in 
your testimony and how Denver has been able to realize it? Has 
it been helpful? And has TSA been a good partner as part of 
that public-private partnership?
    Ms. Day. Yes. So there are two parts of that. Thank you, 
Senator, for mentioning it. We had this Summit last year where 
we had Microsoft, Panasonic, Disney--a number of private firms 
who came and have presented to us how they can use some of 
their current existing technology and apply it to the screening 
process, things that are not used that way today. So they're 
coming in with ideas.
    And then we formed a public-private partnership with 
Ferrovial's infrastructure group and Saunders, a local 
contractor, to actually invest their money and their expertise 
in our checkpoints. So, yes, the private sector is very much 
involved.
    Senator Gardner. And describe a little bit the economic 
impact that DIA has on the state of Colorado, if you could.
    Ms. Day. We're the largest economic engine not just in the 
state of Colorado but the Rocky Mountain Region, generating 
over $23 billion annually into the economy.
    Senator Gardner. Thank you.
    Thank you, Ms. Chairman, and thank you, Senator Inhofe.
    Senator Cantwell. Senator Inhofe?

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you very much. It's pretty obvious by 
now, if you didn't already know it, that I'm new on this 
committee. In fact, this is the first Subcommittee hearing that 
I've been to. I do have a background, a career in aviation, so 
I'm looking forward to this.
    But, quite frankly, I have to say, Ms. Day, I didn't know 
that anyone had a dog therapy program, so I've learned 
something here.
    Ms. Day. Actually, many airports do, not just ours.
    Senator Inhofe. Oh, they do? All right. Well, I'll keep my 
eyes open and try to learn about that.
    When I left to go out on the second vote, you were talking 
about all the advantages of enhancing the Canine Corps, and I 
guess I don't understand, being new on this committee, what the 
problem is. I mean, why aren't we already doing it? All four of 
you agree on that, right?
    Mr. Alterman, what's the problem?
    Mr. Alterman. I think that change is always difficult in an 
agency, and things that are new come more slowly than we would 
like, and I think that everybody on the panel has recognized 
that with the constant changes in leadership of the agency, 
sometimes messages get lost between the new administrators. I 
think there is sometimes resistance in the bureaucracy, that 
people don't want to do things differently, and that culture is 
difficult to change.
    Looking forward, though, we do have a process now. We have 
a request for information that was issued. There's an industry 
day next week to talk about the dog program as we move forward. 
I'm cautiously optimistic that we'll make progress. I wish it 
had been faster. I still think there may be some differing 
factions within the agency that may slow this down, but----
    Senator Inhofe. OK. That's fine. I appreciate that. Let me 
ask you on the term--one of you mentioned right before I went 
for the second vote on the fact that we have--is it a 2-year 
term now for a TSA Administrator?
    Mr. Alterman. There is no term for a TSA Administrator.
    Senator Inhofe. There's no term at all. All right. Would 
you recommend a 5-year term, like the FAA Administrator?
    Mr. Alterman. I would recommend that. Actually, if your 
lawyers go back and look at the statute, you'll discover that 
the statute is really messed up with respect to the TSA 
Administrator. The TSA was formed right after 9/11. It was 
initially part of the Department of Transportation. The next 
year, it was transferred to the Department of Homeland 
Security. As I read the Act, the Act still says the TSA 
Administrator reports to the Secretary of Transportation. So 
there needs to be a tweaking of the statute. The initial 
statute that established TSA had a five-year term for the 
Administrator. It did not survive when it was transferred to 
DHS.
    Senator Inhofe. Do all of you agree that it would be better 
to have a----
    [Chorus of yeses.]
    Senator Inhofe. All of the stakeholders agree.
    Ms. Day, you were saying--as I went for the second vote, 
you were talking about emulating--I think you said Heathrow? 
I'm not sure. Was it Heathrow?
    Ms. Day. Heathrow and Amsterdam Schiphol.
    Senator Inhofe. OK. What I'd like to have you do, each one, 
until my time expires--it's always a good idea to look to 
someone else who is doing something better before you start 
making a lot of changes. We don't need to reinvent something if 
someone else has already invented it. Now, I'd like to have 
each one of you--it'll have to be brief--comment on who is the 
best one out there to emulate right now and why. Starting with 
you, Ms. Day.
    Ms. Day. Well, I think I would say Amsterdam Schiphol. They 
use these innovation lanes where multiple people divest at one 
time. If your bag alarms, you and your bag are taken offline. 
Everybody else goes through. The actual agent who is looking at 
the image of your bag is remote so they don't have the pressure 
of you looking at them looking at their bag. They can also do 
multiple lanes so it's more efficient for the agency.
    They also have a person, as you divest, who is basically 
doing a visual risk analysis of you and can push a button so 
that you actually get extra screening. So they've got multiple 
layers there, and it's a wonderful passenger experience. I've 
got to tell you, they've got low lights, and they've got plants 
growing in the area, and it's a very stress-free environment.
    Senator Inhofe. Well, they have to have plants if they have 
their dogs going everywhere.
    [Laughter.]
    Senator Inhofe. Mr. Laustra?
    Mr. Laustra. Yes, I would agree with Ms. Day. Amsterdam 
certainly is an early adopter and progressive airport. I would 
also ask you to look at our neighbors to the north in Canada. 
They're upgrading their security systems at all the airports, 
adding biometrics, queue monitoring software, remote screening 
workstations, and smart lanes. They're doing all of that. 
They're way ahead of us in trialing these technologies.
    Senator Inhofe. That's good. My time has expired. Do you 
all generally agree?
    Ms. Pinkerton. Just one extra thought. I completely agree 
with both of the other folks that have talked--Schiphol, 
Canada. The difference is the government procurement process, 
quite frankly, I don't know if we can fix it. So we----
    Senator Inhofe. We have the same problem with our military. 
That's right.
    Ms. Pinkerton. Yes.
    Senator Inhofe. Well, thank you very much.
    Senator Cantwell. Senator Capito?

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, and thank all of you for your 
testimony and for answering the questions.
    I just have a quick question on--and I think, Ms. Day, you 
mentioned this, that the screening is going to focus on more 
risk-based screening as opposed to just generalized updating 
the technologies in advanced screening. Do you think it should 
be on a dual track, or do you think that one outweighs the 
other in terms of where you could get the best results?
    Ms. Day. I think we need to do everything, as much as we 
can, yes.
    Senator Capito. So do you agree with the heavier emphasis 
on the risk-based screening as well?
    Ms. Day. I do.
    Senator Capito. Does anybody else have a comment on that?
    [No verbal response.]
    Senator Capito. I'd like to talk about--I'm from a rural 
state, basically, West Virginia--small airports. The 
screening--we learned, I think, in 9/11 that the screening that 
occurs in those small airports can be exceedingly important 
when we saw what happened. Some of those folks entered, I 
think, in Maine or some other of the smaller airports, much 
like the airports we have.
    But I've noticed our own TSA as I pass through there a lot. 
We have a lot of TSA agents. But there seems to be a lot of 
turnover in terms of--not so much at the level at which the 
actual screening is done, but at the supervisory level. They're 
moving in and around the areas. Do you find that in all of your 
experience at Denver? Are folks moving around a lot, like maybe 
they do in the VA and other agencies, and is that an issue for 
you? Or do you have the continuity there that you think that 
you need?
    Ms. Day. It's not so much that we see people moving around, 
but there is a great deal of turnover. TSA is constantly hiring 
to replace those who have left, and I don't know the cause of 
it. But that certainly is the situation.
    Senator Capito. Does anybody else have an opinion on that?
    [No verbal response.]
    Senator Capito. In terms of cargo screening, I would 
imagine by the time we get to cargo screening at a smaller 
airport, we're going to be pretty far down the road. Do you 
have any insights into the best way that we could do that, that 
we could make it more pervasive into the smaller airports, 
smaller regional airports? Do you have any opinion on that?
    Mr. Alterman. I think that our members operate at all 
smaller--we have regional airlines flying from the smaller 
airports into the hubs.
    Senator Capito. Right.
    Mr. Alterman. The screening that's done there should be as 
pervasive as in any other airport. We don't recognize--we know 
there's a difference in the airports, but in terms of following 
the rules on what we screen and how we have to screen--those 
are applicable at all the airports, both small and large. And I 
don't know if Sharon has any comments on that for the freight 
that moves in the passenger planes. We represent the freight 
that moves with the all-cargo guys. But, you know, the 
screening we do there is the same as we do at a major airport.
    Ms. Pinkerton. It is the same, and the same for passengers, 
obviously. I would just go back to--we love dogs, and we think 
that the more that we can use them and build capacity for 
training for dogs, it's going to help the entire system.
    Senator Capito. Well, thanks for bringing that up, because 
I was going to say I used to--last session, I chaired the 
Subcommittee on Appropriations for the Capitol Police, and I 
went out and looked at the capitol police training center for 
the dogs, and you see them rather prominent here--very 
important part of what goes on here. And, really, one of the 
reasons that they don't--and we are trying to up their 
capacity, too, to do external, outside buildings, not just cars 
going up onto the plaza and those kinds of things--is the 
capacity. It takes a long time to train the dog, it's 
expensive, and it's sort of a niche kind of occupation.
    So I think probably the reason that we don't have more--and 
you all are having trouble accessing it--is there's just not 
enough there. So if anybody's listening, it would be a great 
career path for somebody to get into this, because their 
ability to detect at really low levels--and I think what you're 
saying, if you're external, outside of the airport, maybe where 
you're getting dropped off by cabs or where there have been a 
few attacks, it wouldn't--it's not like somebody carrying a 
large gun walking around as a deterrent. They really can't see 
that this dog is doing anything, you know, unless they're 
really, really paying attention. Some people might overlook the 
fact that this is a detection dog, and that's where I think a 
lot of usefulness could come in for them as well. So I'm very 
supportive of that, and thank you all very much.
    Senator Blunt [presiding]. Mr. Alterman, if you haven't 
commented on that while I was gone, before we go to Senator 
Hassan, would you make the point you made about looking at the 
private sector?
    Mr. Alterman. Yes. I was going to jump in. The problem we 
have now is the only dogs that are operating in most 
environments are TSA dogs. It's absolutely correct that there 
are not enough of those dogs. But in terms of career path, we 
could have a whole lot more dogs if the program was open to 
third-party screening--third-party dogs doing the screening. 
That's the program that's in its infancy now at TSA that we're 
going to have industry meetings on next week.
    But TSA will never be able to provide enough dogs by 
themselves. What we have asked is that TSA provide a program 
where they would certify facilities--private facilities--and 
then audit those facilities to make sure that they're doing the 
right job. It would be up to the industry, in our case, the 
all-cargo carriers--if they want to use those dogs, they would 
actually pay for the dogs and pay for the use of the dogs.
    TSA's job would be to actually certify everything to make 
sure they're to TSA standards, but we would be buying the dogs. 
And I think the market would expand rapidly, and there are 
people out there to do that, and that's the program we've been 
encouraging them to do.
    Senator Blunt. And in that idea, would there also be a 
third-party handler?
    Mr. Alterman. There would.
    Senator Blunt. Those standards would have to be----
    Mr. Alterman. Those standards would have to be established, 
and that does not now exist, and we're in the process now of 
trying to figure out how that would work.
    Senator Blunt. And you're anticipating no government cost 
for that program?
    Mr. Alterman. There would be a government cost. The 
government cost would be for TSA to certify the facilities to 
make sure they're doing it right and to make sure that they 
continue to do it right by having some sort of repeat audit 
program to do it. But they wouldn't have to actually buy the 
dogs. The dogs would be leased by the companies.
    Senator Blunt. Thank you.
    Senator Hassan?

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair.
    Well, good morning, everybody, and I'm sorry I missed your 
initial testimony. I thank you for the work you do, and I thank 
you for being here.
    I wanted to start, Ms. Day, if I could, because I do 
understand that in your testimony, you brought up the need for 
the TSA Pre3 program to be fully supported and expanded. I'm 
from New Hampshire, and at our Manchester-Boston Regional 
Airport, we've encountered challenges ensuring that we have 
enough TSA personnel on the clock to keep our PreCheck lanes 
open.
    So our local TSA team is doing absolutely the best it can, 
but when they face resource shortfalls, it's a problem for 
them. When TSA reduces its staffing levels, the airport has to 
shut down PreCheck lanes temporarily. That means the passengers 
who would be in that lane merge into regular lanes and give up 
some of that expedited screening privilege that they've paid 
for.
    So on a large scale, I think a lack of resources for 
PreCheck and TSA, generally, may serve as a disincentive for 
travelers to sign up for the program. You would pay for it, but 
then on your regular travel schedule, you rarely get to use it. 
So is this a challenge beyond my own airport, I guess I'm 
asking, and how would you suggest that TSA address the issue?
    Ms. Day. Yes, it's a problem at our airport, too. The 
PreCheck line at each security checkpoint is not open the 
entire time, and it is based on resources. I was mentioning 
earlier that we sit down with TSA every day and go through the 
loads and what we expect the passenger traffic to be like, and 
we try and best use their resources. But the reality is their 
resources are limited. So the reality is that those checkpoints 
are closed sometimes.
    Senator Hassan. Thank you.
    To both Ms. Day and Mr. Alterman, I know you've addressed 
in some of your testimony, but I'd like to explore it a little 
bit more, the issue of violence in the unsecured parts of our 
airports. We know over the last few years we have seen several 
troubling incidents of violence in these so-called nonsterile 
areas, the 2013 incident at the Los Angeles International 
Airport where a TSA officer was murdered and earlier this year 
the active shooter who killed five people near the baggage 
claim area in Fort Lauderdale.
    Last spring, we saw suicide explosions occurring in public 
areas at Brussels and in Istanbul. So I know that securing 
these areas requires cooperation between TSA, local police, and 
airport officials.
    So I just would love to hear, maybe starting with Mr. 
Alterman--has your Advisory Committee looked at ways to improve 
security in the public areas? And I'd love some recommendations 
about how to do it.
    And, Ms. Day, you touched on it briefly, but if you have 
anything to add after Mr. Alterman speaks, that would be great.
    Mr. Alterman. Thank you, Senator. Actually, the Aviation 
Security Advisory Committee has not been involved in public 
area security, but there's a reason for that, and it's not 
because TSA is not doing something about it. Well before Fort 
Lauderdale happened, the TSA has established something called 
the Public Area Security Summit. We've had three meetings of 
that Summit so far. The most recent one was last Friday.
    That summit brings together all the elements that you 
mentioned, because they're all involved in the process--the 
airport directors, the FSDs, the local law enforcement, the 
airport law enforcement. There are so many jurisdictions 
involved that we've got to find a way to have coordination 
among those officials so that, hopefully, we can prevent 
incidents. But if an incident happens, we need to understand 
who's in charge and how things are going to work.
    The next meeting of the Summit is April 26. Then what we're 
trying to do is put together a framework. When you're dealing 
with an inherently public area--and you're going to have a 
public area no matter where you put the checkpoint. You could 
shut down, you know, and have to check in at the door, but then 
you'd have groups of people outside the door. So it's a real 
challenge.
    I think that the way TSA is looking at this is it has got 
to be--one thing I've discovered--and I'm not an airport guy. 
I'm a cargo guy. But just like different segments of the 
aviation industry are not the same, every airport is not the 
same. And the one thing we've discovered is each airport has 
different risks and different requirements. So whatever is done 
as a result of this public area security summit, it's got to be 
airport specific, because each airport is different.
    So my guess is what's going to come out of this will be a 
framework of how airports can deal with a menu of options, 
depending on their unique needs. It's difficult. I'm not sure I 
could ever tell you that we're going to get to a system in the 
public area where we're always safe, because we're dealing in 
the public area. But the use of canines, again, a deterrent; 
the cooperation between the various police forces--I think TSA 
understands this now. They've understood it for a while, and 
they've taken the action to put together this summit, and 
that's where we're going in that area.
    Senator Hassan. Thank you.
    Ms. Day. If I could add, I totally agree with the dogs. I 
think also there's a lot of technology being evolved today that 
is passive, that you won't even know you're going through. We 
had a pilot going in January of a device that you could install 
in the doors of an airport that could detect large masses of 
metal.
    There are lots of other technologies. There are things we 
could put on the train that goes from downtown to the airport 
that you as a train passenger would not even know whether it is 
metal detection or explosive detection. Or at the base of an 
elevator--I mean, there are a lot of options out there. The 
technology that's being evolved today is amazing, and, 
hopefully, we can integrate that into our facilities in the 
next few years.
    Senator Hassan. Thank you very much.
    And, Mr. Chair, thank you for indulging my going over.
    Senator Blunt. Thank you, Senator Hassan.
    Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman. My constituents 
sent me here with one of the top priorities is to invest in our 
infrastructure, and Illinois is home to one of the busiest 
airports in the world, depending on time of day and how many 
aircraft happen to be on the ground. You know, TSA's 
counterterrorism mission is and must always remain your highest 
priority. I know that all the witnesses today share a common 
goal of putting systems in place to make sure our nation's 
airports can thoroughly and efficiently screen travelers, even 
on the very busiest of days.
    But last spring, passengers at O'Hare and at Midway Airport 
were subject to excessively long wait times at TSA checkpoints. 
In May, checkpoint delays were so bad, O'Hare was forced to 
advise travelers to arrive 3 hours prior to departure. People 
were spending two and three hours in the TSA line trying to get 
through security. However, Administrator Neffenger was able to 
act quickly by redirecting resources, collaborating with the 
private sector, and coordinating across agencies to address 
delays and prevent a major national catastrophe--a wonderful 
reaction, got it done.
    Ms. Pinkerton, in addition to the current Federal hiring 
freeze, I'm deeply concerned that the current administration 
has yet to nominate a new TSA Administrator. If tomorrow we 
face the same long lines at any one of our major airports that 
we faced last spring, would we right now be capable of 
addressing the problem without the ability to quickly hire 
additional screeners?
    Ms. Pinkerton. Thank you for the question, Senator. In my 
oral testimony, I talked about exactly this, what happened last 
summer, and the question that I posed back was: Is TSA ready 
today for the summer surge, and do they have a plan and 
adequate resources to address what we know will be increased 
traffic in the summer?
    Yes, we need a TSA Administrator as soon as possible. I 
commended Administrator Neffenger for his leadership and the 
way--it was a silver lining on top of what was really a 
meltdown last year. I do believe he put in place some lasting 
processes--the incident command center; the daily conversation 
that goes on at the local level and in Washington between 
airports, airlines, and TSA; looking at the staffing at each 
airport; seeing if we need to reallocate resources. I think 
that's still the question on the table that you need to ask 
TSA: What is the plan for the summer, and do you have the staff 
and the resources needed to meet the demand?
    Senator Duckworth. I couldn't agree with you more. I 
introduced a bill last year in the House that would address 
some of TSA's chronic staffing shortages, and one of the things 
that we've been briefed on--our security in our aviation system 
and access for passengers--is actually the fact that TSA overly 
relies on part-time workers with high turnover who don't 
maintain the skill levels that they need to, and you're 
constantly training new people as opposed to having someone 
who's there full time, has been there full time, and has gained 
the knowledge that's important.
    That's why my TSA Workforce Flexibility Act--you know, it 
would have lifted that arbitrary cap that Congress places on 
the number of full-time Transportation Security officers that 
TSA can employ in any given year. I served in administration at 
one point. I understand how types--all congressional mandates 
don't always work when they get out into the agencies. So if 
the appropriators tell an agency, ``Hey, you can only hire 
45,000 additional people,'' no agency head is going to turn 
around and request 50,000 because it has been clear what 
Congress has said, that you can only have 45,000, even though 
50,000 is what you need in order to maintain security.
    This question is for all members of the panel. Would you 
concur that we should provide TSA with workforce flexibility 
that guarantees the agency can deploy personnel based on 
mission needs rather than evolving--mission needs related to 
evolving security threats and fluctuating travel volumes and 
not meeting an arbitrary, inflexible staffing ceiling?
    Ms. Pinkerton. I will just add this. I believe that the CR 
did provide some flexibility to TSA, both budget reprogramming 
flexibility and also staffing flexibility in between part-time 
and full-time employees. The question is what happens when the 
CR ends at the end of April. We're urging that that flexibility 
be maintained.
    Senator Duckworth. Thank you so much.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman, and 
thank you to all of you for the work that you do.
    Mr. Alterman, in your testimony--and I know that Senator 
Inhofe already asked you about this--but the idea of the fixed 
5-year term for the FAA Administrator. I just wonder if you 
could elaborate on that. I personally enjoyed working with--I 
did enjoy working with Administrator Neffenger very much. But 
we've had different TSA administrators, and I've found it to be 
an issue. So could you address this?
    Mr. Alterman. Yes. We've discussed this a little bit, but 
the problem is that when you have instability at the top, 
change is very difficult, and that providing a fixed term for 
the Administrator would help to solve that, assuming we got the 
right person in the job. One thing we've discovered is that 
this is an agency that needs top-down leadership. There's 
inertia for not doing new things. There's inertia for not doing 
new programs.
    One of the first things that Peter Neffenger said to me the 
first time I met with him was that culture change is difficult, 
and it takes time, and it can't be imposed on people. It has 
got to bubble up. In order to do that--I agree with him 100 
percent. But in order to do that, you can't change 
administrators every 6 months, because what happens is the 
people that don't want to change suddenly become in charge. I 
really think it would go a long way to providing the stability 
and providing a mechanism for the top-down leadership to do 
things a little differently in the agency.
    Senator Klobuchar. Thank you. I have fully embraced that 
culture change issue. I once managed 400 civil service, very 
good employees in the county attorney's office, and I remember 
when I first came in from the private sector, I tried to 
rearrange the lobby furniture, and it got moved back three 
times. And then the receptionist, without identifying people, 
took notes of what everyone said, and in one hour, there were 
18 negative comments claiming that people would be hurt, and no 
one was ever hurt. I ended up winning, and it was better for 
our clients. But I just think that culture change can be hard, 
and that's why I think turning over so much can be a 
difficulty.
    Canines--you have talked at length about that, and I just 
wanted to note that we had an amazing change of events when we 
got some canine teams in the Twin Cities Airport. It made a big 
difference. And I know Senator Blunt has asked about the TSA 
Pre3 issue, and I am a supporter of the program.
    Ms. Pinkerton, you made several suggestions for increasing 
enrollment. How could streamlining PreCheck Enrollment for 
individuals who already undergo more extensive background 
checks help to increase enrollment, specifically?
    Ms. Pinkerton. I really think since TSA has pulled back on 
their RFP to try to get third parties involved, I think you 
should continue to exercise oversight to ask them to move 
forward, but I don't think we can necessarily wait on it. I 
think they need to use their existing authority to simplify the 
application process and the screening process as well. It was 
designed for port workers and truck drivers, not for the 
traveling public. There has got to be a simpler way.
    Senator Klobuchar. Very good. The FAA Extension Safety and 
Security Act that was signed into law last year allows airports 
and air carriers to coordinate with TSA on staffing levels 
through the Staffing Advisory Working Group.
    Ms. Day, in your experience, how can closer coordination 
between the TSA and airports on staffing levels improve the 
screening process?
    Ms. Day. Well, we don't have a steady number of travelers 
that go through the airport at different hours of the day, 
different days of the week. So I think the more that there can 
be communication with TSA and they can know what to expect in 
advance--I know our teams have already sat down and talked 
about spring break and what we are expecting in the loads. The 
airlines publish their schedule. We know their load factor. So 
it's pretty easy for us to----
    Senator Klobuchar. Yes, I noticed, actually, for this 
weekend, we had--there was an article in our paper today in 
Minnesota about what the wait times were going to be ahead of 
time for the President's Day weekend, which I thought was 
pretty interesting, and I think that was part of our issue. 
When we had this somewhat of a disaster of wait lines, there 
was a training going on for TSA, we were reconfiguring the 
front airport, we had added security measures, and it was like 
a perfect storm. But part of it was, I think, there hadn't been 
as much coordination as there should have been.
    Last question of you, Ms. Day, focusing on the soft 
targets. The FAA bill that was signed into law last year 
authorized a doubling of Visible Intermodal Prevention and 
Response, or VIPR units, from 30 to 60. Could you talk about 
beyond the dog issue--I know some of them include dogs and some 
of them don't--how that more visible security in baggage claim 
and check-in areas can improve safety?
    Mr. Day. Well, I think someone mentioned earlier that just 
seeing a dog can be a deterrent, whether or not it is a bomb 
sniffing dog or not. I think seeing the VIPR units is one 
thing, but I think the other thing is these people actually are 
looking for people who look nervous, people who seem to have 
some stress about traveling. So if we really do believe in 
risk-based screening, which I do, the place to do that is to 
get people out and see people before they are even at the 
checkpoint and be able to identify them. There's even great 
technology today that will let you track people around your 
airport if they've been identified as a high risk.
    Senator Klobuchar. Thank you very much.
    Senator Blunt. Thank you, Senator Klobuchar.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    As you know, in 2013, Congress passed a measure reducing 
the deficit as part of a major budget compromise, and Congress 
used the user fee that passengers pay to fund TSA efforts. That 
fee went from $5 to $5.60, known on our tickets as the 
September 11 security fee. I could make some arguments about 
the accuracy and truthfulness of that label, as a consumer 
advocate, but Congress required some of the increase in revenue 
to go toward reducing the deficit, not to the TSA.
    The airlines protested, as I recall, concerning the cost of 
the ticket that was going up. But the new incremental revenue 
was going nowhere--was going somewhere other than the airlines, 
in fact, going to the Federal Government instead. So Congress 
acquiesced, as you'll recall, acquiesced to the airlines' 
demands and eliminated the airlines' responsibility to 
contribute about $400 million annually to TSA, which they had 
been required to do soon after September 11.
    One publication called this one of the top lobbying 
victories of 2013. That victory actually blew a massive hole in 
the TSA's budget. Taxpayers and passengers were forced to cover 
the loss. Resources had to be shifted from elsewhere. In fact, 
that development came just as airlines imposed more check bag 
fees and other charges, causing difficulty and inconvenience 
for passengers. I've raised this issue before. So have others.
    Let me ask you, Ms. Pinkerton--in your testimony, you say, 
and I agree, that the security fee perhaps should not have been 
directed toward deficit reduction instead of toward the TSA. 
You raised that question in your testimony. And I'm wondering 
whether the $400 million that airlines no longer pay annually 
as a result of this situation, which is billions of dollars 
over time, that--also to question whether your industry should 
pay perhaps some part or all of that $400 million.
    Ms. Pinkerton. Senator, I think you've correctly identified 
the issue here today, and that's the fact that passengers and 
consumers are paying billions of dollars annually in TSA 
security fees, and every year, $1.3 billion is being siphoned 
away for deficit reduction. And it's not just at TSA that's 
happening, it's CBP fees as well.
    So carriers certainly have done their part. We talked about 
the crisis that happened last summer and the fact that carriers 
stood up, paid millions of dollars for contractors to stand and 
do queue management, to do divestiture responsibilities. We are 
currently paying for innovation lanes. I heard another witness 
here today say that's not a sustainable way of moving forward. 
We engage in reimbursable agreements with CBP to pay for 
security and we are stepping up to the plate.
    But you've identified what the real issue here is, in that 
passengers will pay over the next 10 years $13 billion that 
they will not get back. It should be put back into the security 
system, we need newer technology, we need more efficient 
processes. Instead, that money is being siphoned away.
    Senator Blumenthal. How much do you think it's fair for 
airlines to have to pay? And what do they pay now?
    Ms. Pinkerton. Airline passengers are bearing the 
responsibility for security fees right now.
    Senator Blumenthal. No, I'm talking about the airlines 
themselves. How much do they pay?
    Ms. Pinkerton. We don't pay into the security system. It's 
supposed to be a----
    Senator Blumenthal. That's what I thought. Wouldn't it be 
fair to ask the airlines to pay some of the cost of security 
since they're the ones who benefit?
    Ms. Pinkerton. I think the users of the system are the 
passengers, and we're supposed to have a user-based fee system. 
Unfortunately, you can't call it a user fee if the money that's 
being put in today is being siphoned away, and that's what 
needs to be fixed first.
    Senator Blumenthal. Isn't the vast majority of the dollars 
that passengers pay going into security and only a small 
proportion going to deficit reduction?
    Ms. Pinkerton. No, I wouldn't say that. The industry is 
paying 17 different Federal Government taxes and fees. 
Commercial aviation as a whole pays that. Some monies go into 
the aviation trust fund, some monies are a PFC that go into 
airports, and some money goes to CBP, some money goes to the 
Agriculture Department. But in two of those fees, for a total 
of--it's $13 billion plus $5 billion over the next 10 years--
that's $18 billion--again, I think you've correctly identified 
the issue. Passengers are paying, but the money is being 
diverted away from what they're paying for.
    Senator Blumenthal. Well, it strikes me--and I'm out of 
time, so we can pursue this in another channel--that, yes, 
money is diverted to deficit reduction when perhaps it should 
go to security. But, also, airlines benefiting from security 
should be tasked or charged themselves with some of the cost of 
a really essential service that the government provides them as 
a commercial benefit to them, not just to passengers who happen 
to be the users of that service.
    Ms. Pinkerton. We actually do pay separate CBP fees for 
inspection of cargo on a plane-by-plane basis. But I think, 
again, what I will say is a user-based system--the user is the 
passenger who's using those TSA security functions, and it's 
not fair that those fees are being siphoned away.
    Senator Blumenthal. I'll give you the last word.
    Thank you, Mr. Chairman.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz [presiding]. Thank you very much to each of 
the witnesses. Chairman Blunt had another commitment, so I'm 
going to chair the tail end of this hearing. I want to thank 
each of the witnesses for being here. Thank you for your hard 
work and your helpful testimony.
    Airport security and security on flights is something that 
matters to all of us. In recent years, we have seen fatal 
terror attacks in Brussels, in Fort Lauderdale, in Los Angeles, 
and, of course, all of us grieve the horrific attack on 
September 11. My question to each of the witnesses is: We're 
now 16 years, nearly, past September 11. How great would you 
estimate is the threat of terror attacks at airports or on 
airplanes, and what better could we be doing to protect against 
those threats?
    Ms. Pinkerton. I'll start first, Senator. Sharon Pinkerton 
from Airlines for America. I think today's system is safe and 
it is secure. It's not perfect, and the Committee and the 
Aviation Advisory Committee has identified places where TSA 
could improve. So we've seen those areas. We've talked a little 
about employee screening that needs to be improved. We've made 
some progress. We've now got a program with the FBI where all 
of our employees can be continuously vetted.
    But this is a system which requires constant improvement, 
continual daily collaboration between TSA, airports, and 
airlines. I think we're all committed to that. But I do think 
the system is safe and secure. It's not perfect, and we are 
continuing to work on it. But it is safe and secure.
    Ms. Day. If I could add--I'm Kim Day, Denver International 
Airport. I think what we've seen since 9/11 is that the threat 
has changed, and we've seen terrorists use different methods. 
So our security has had to evolve, too. TSA has tried to keep 
up with it, but I do think that there is technology out there 
today that we are not implementing in our airports that could 
make us even safer.
    The private sector has really responded to the fact that, 
today, you don't just need screening to go into an airport. You 
need it to go into a sports stadium. You need it to go into 
this building. So they have developed some amazing things, some 
of it passive, that could make our airports more secure if we 
could implement it.
    Senator Cruz. So what technology, in particular, would you 
suggest we look more closely at?
    Ms. Day. So we just did a test of a machine that you walk 
through that looks for large metal. There are also some passive 
systems that can detect explosives that you would not even know 
that you are passing through.
    Senator Cruz. Anybody else?
    Mr. Laustra. Yes, I'd like to add to that. I agree with the 
panelist that the system is safe, but there are some promising 
new technologies on the horizon for passenger screening, and 
with the advent of the TSA Innovation Task Force and the 
Innovation Lanes TSA has set up, I think we're going to be able 
to finally test those technologies in a real-world setting.
    Senator Cruz. One potential area of threat is the insider 
threat, whether it is employees at airports, whether it is 
those within TSA. Now, there are a great many brave men and 
women who are protecting us in TSA, but looking at the 
vulnerabilities that we have faced, in particular, the TSA 
informed my office that the Office of Inspection documented 
reports of 1,297 arrests of TSA officers between December 2002 
and March 2015. That is a dismayingly large number.
    And, indeed, the U.S. Attorney's Office just announced this 
week that on February 8, 2017, a Federal grand jury returned a 
superseding indictment against 12 current and former airport 
and TSA employees for conspiracy to possess with intent to 
distribute cocaine in Puerto Rico. The defendants are accused 
of helping smuggle approximately 20 tons of cocaine over the 
course of 18 years, from 1998 to 2016.
    How significant do you all assess the insider threat to be, 
and what further steps should we be doing to keep the flying 
public safe?
    Mr. Alterman. Thank you, Senator Cruz. The insider threat 
is a significant threat, and in terms of--I happen to chair the 
Aviation Security Advisory Committee, which was tasked a few 
years ago with trying to come up with recommendations to 
counter it. It wasn't TSA employees at that point. It was a gun 
smuggling operation out of Atlanta.
    At that point, Acting Administrator Carraway said, ``OK, 
ASAC, you've got 90 days to come up with recommendations 
because we understand there's a threat on the inside.'' Within 
that 90 days, we formed a working group that came up with 28 
separate recommendations, all of which were eventually 
concurred with by the agency, and they are in the process of 
implementing them. They go anywhere from more extensive use of 
the FBI Rap Back program to make sure that we don't have 
criminals and have current information on the people that are 
working at airports to more robust screening of people who have 
access to the airport secure area.
    You know, one of the things we discovered in the Advisory 
Committee was it's really nice when TSA concurs with the 
recommendations, but it really is important that those 
recommendations be implemented, not just concurred with, and 
they are in the process of doing that, sometimes more slowly 
than some of us would like, but they've got the internal 
bureaucracy to worry about. And I think they have made progress 
and continue to make progress on the insider threat area. That 
doesn't go to TSA employees, necessarily. I think that may be a 
separate issue which you'd have to ask them about.
    But in terms of trying to secure the area, one of the 
things that the Advisory Committee recommended and I think is 
really important--there has to be robust screening. The goal is 
to make every employee who works in a secure area of an airport 
understand that he is likely to be screened at any point during 
his work day. It's not only at the checkpoints. It's on the 
airport surface, too. And in order to do that, there has to be 
a sophisticated, robust screening program, and that's a bit in 
its infancy. I think it has moved more slowly than the 
Committee would like, but it's moving, and it's moving faster 
now.
    So they have taken that seriously, and I know that the role 
of the Advisory Committee is simply to advise the 
administrator, who then does what he thinks is necessary. We in 
the Committee and the working group that worked on insider 
threat told them that we would also monitor the implementation, 
because it was important that they be implemented, and we're 
still doing that.
    Senator Cruz. Thank you. That was helpful, and we'll 
continue that conversation.
    I'll now recognize Senator Sullivan, and he is going to 
take over the gavel and chair the Committee as I step out.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. I'm not sure--I 
think the real Chairman just walked in.
    [Laughter.]
    Senator Cruz. I'll let you guys work that out.
    Senator Sullivan. That was about a 2-second flash of glory 
of me chairing the Committee. Nevertheless, thank you.
    Mr. Chairman, nice to see you.
    I apologize. I missed a lot of the hearing. I was presiding 
in--but I know this is a very important topic for my 
constituents and I think for all Americans, and we really 
appreciate your testimony and focusing on it. So if this 
question was asked earlier, please forgive me. But I know this 
issue of pushing out the perimeter in terms of safety at 
airports is something that many of us, many in the agency, many 
advisors like yourselves are looking at.
    How should we think about this? Because there's obviously--
you look at some of--where the terrorist attacks have been 
focused, whether, you know, recently, unfortunately, in Florida 
or in Europe, and it seems to be this kind of soft target area 
in the airports but beyond the security perimeter. So, again, 
if you've already discussed this, please accept my apologies, 
but I think it's a really important issue that a lot of us have 
questions about. So how do we look at the balance?
    Ms. Day. Maybe I'll start, if I may. I'm Kim Day with 
Denver International Airport. I think we all agree that if you 
move the checkpoint closer to the entry, then all you're doing 
is moving the problem. You're not solving the fact that there 
is a pre-checkpoint area that you have to defend. There are 
lots of ways you can do that. Today, the airlines have 
information on passengers--even when you check in, you can be 
risk-based through a database. There is technology being 
evolved that can passively screen you for large amounts of 
metal or for explosives.
    We talked about using dogs. Dogs are wonderful, and they 
could roam the area and give an extra level of security. I 
think the day is going to come when every door in the airport 
has some passive detector that you don't even know you're 
passing through as you open the door, or if you get off the 
train at our platform, or you go up an escalator. So that day 
is coming with all the great technology that the private sector 
is developing.
    Senator Sullivan. Right. That's very helpful. Any other 
comments on that?
    Ms. Pinkerton. Well, you also missed a discussion--we all 
agree that we love dogs, and that the canine program is one 
that really needs to be--the capacity for training those dogs 
needs to be expanded, and we need to figure out more ways to 
get more dogs. And dogs can be used in the public area access 
as well.
    Senator Sullivan. Let me ask another question. We often 
focus on TSA and the threats with regard to passenger 
terminals, which, of course, is appropriate, given that we want 
to protect our citizens. My state is also a big state for--the 
hub of cargo, air cargo. I would just like to know from the 
threat perspective--what do you see as the biggest threats to 
places like Anchorage International Airport that are, you know, 
one of the biggest cargo hubs in the country, if not the world, 
and how do we address those?
    Mr. Alterman. I think they are being addressed in the 
routine, day-to-day operations of the all-cargo industry which 
operates significantly at Anchorage. The issues are slightly 
different. One thing we've discovered--and I've mentioned it 
before--in terms of all airports not being the same and you 
have to tailor your response to the threats being presented, 
neither is the airline industry a unitary body, and the threats 
are different in the cargo area. That's why we all operate 
under different security programs.
    All of our carriers that operate all-cargo flights have 
proven to be very secure. They are screened for threats. They 
are threat-based. One thing we could use is perhaps a better 
flow of intelligence information. One of the things that really 
impressed me with certain things that have happened throughout 
the world is the best way to really manage threat is to have 
the best intelligence.
    But on a day-to-day basis, all of our members do the 
screening that's necessary by our security programs and do more 
than that, actually, and there really hasn't been much of a 
problem. Our operations are threat-based. We have perhaps as 
good intelligence capabilities from our people around the world 
as does the agency, and the key is to share that information to 
get the information to all our carriers and to the airports so 
that we can respond to individual threats. But on a daily 
basis, it works through the application of our security 
program, and we're confident that we're doing the job.
    Senator Sullivan. Let me ask, Mr. Chairman, if I may, just 
one final question on the balance between kind of urban and 
rural airports. And, again, I know that TSA has to look at 
that. Again, in my state, we have a number of airports that are 
very, very small, but very, very important, and some have a lot 
more intensive screening than others.
    How do you recommend that that balance be looked at? Is it 
primarily threat-based, meaning, you know, small communities 
that are not really connected to many other parts of the state 
or the country are viewed in a much kind of lower threat 
capacity? Because, as you know, we all want protection, but if 
the measures and requirements become so burdensome, you 
actually, in some communities, certainly in Alaska, you can 
risk pricing small local commuters and airlines out of that 
market. How do you guys recommend that we look at that balance?
    Mr. Alterman. Everyone is looking at me, so I'll take a 
shot at it, I think, because they don't want to answer the 
question. You know, I said earlier--and, you know, it's true--
you've seen one airport, you've seen one airport. That's not my 
line. It's the airport's line. But I think that we have to 
provide adequate security at all airports. We can't afford at a 
local small airport someone getting into the system and then 
doing havoc somewhere else, or even at the local airport. But 
that doesn't mean all the measures have to be the same.
    What we have to ensure is--we have to understand what the 
outcome has to be. We have to understand what the goal of the 
security measures are. And I think the way we should be looking 
at security, generally, not just the difference between small 
airport, big airport, is that we should demand that the outcome 
be the same. But the way to get to that outcome may be 
different, depending on each entity, whether it's a small 
airport versus a big airport, whether it's a cargo airline 
versus a passenger airline, even within all those parameters.
    I happen to think--and I think our industry happens to 
think--the best way to proceed is to make sure that TSA 
establishes the elements and the goals of what we have to 
accomplish, and then monitor how that's being done. But it 
should be up to the regulated parties who are responsible for 
airports and airlines to best tailor their operations to meet 
the established goal of the agency.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman [presiding]. Thank you, Senator Sullivan, and 
thank you all for participating in the hearing today. I 
especially want to thank Senator Blunt for holding the hearing 
in his new role as Subcommittee Chair. We've got a busy year 
ahead--FAA reauthorization as well as other TSA oversight 
issues that we'll be working with you on.
    Last year, with that FAA reauthorization, we did pass the 
most comprehensive set of TSA reforms that we've seen in a 
decade, and I know a lot of those have been covered today, 
mostly in questions from our members. So I won't belabor most 
of that. But I do think it's really important--these areas that 
are public areas, the threat of insider activity at airports, 
and the steps that were taken in the bill last year to mitigate 
that. So I'm hoping that we'll be able to continue to see 
progress in addressing a lot of those issues.
    I know that it was talked about--the VIPR teams, 
specifically, dogs, very popular, and hope we can see more of 
those deployed at airports, too. But the bill last year was 
designed to authorize more of those types of remedies as well. 
And, then, of course, the vetting of airport workers with SIDA 
badges was required, too, and I'm hoping that we'll continue to 
see steps taken that will better vet people who are going to 
have access to those areas in our airports that could present 
threats.
    So I did want to ask just one sort of follow-up question to 
some of the questions that were asked earlier, and I guess this 
would be directed to you, Mr. Laustra, and that has to do with 
how the directives in the 2014 Transportation Security 
Acquisition Reform Act have been utilized in terms of industry 
engagement and planning. How have they done with that?
    Mr. Laustra. So a byproduct of the 2014 Transportation 
Security Acquisition Reform Act was the TSA five-year 
investment plan, and we received our first report last year, 
and it was a good start. It laid out the strategy for TSA, but 
it didn't give us enough granularity into what TSA was actually 
going to buy. And from a manufacturer's standpoint, that is a 
challenge--it's difficult to plan resources and materials 
around something when we don't know when to expect it.
    So it was a good start. We need more granularity in the 
next report, which is due this summer. So that's where we stand 
right now.
    The Chairman. I think everything else has been pretty well 
covered, so I won't keep you here any longer. But we do 
appreciate your testimony and your responses to our questions. 
This is, again, part of our ongoing oversight responsibility, 
and we want to make sure that we're taking every step we 
possibly can to see that the traveling public is moving through 
our airports in a safe and secure way. So we'll continue to 
focus on that as we get ready for the next FAA reauthorization 
which is just around the corner.
    But I do want to just point out that we'll keep the hearing 
record open for 2 weeks, during which time Senators who want to 
ask questions for the record can submit those, and we would ask 
that upon receipt, that you would all respond to those as 
quickly as possible.
    So, again, thank you all for participating. I don't have a 
gavel here, but I will say that the hearing is now adjourned. 
Thank you.
    [Whereupon, at 12:32 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. Todd Young to 
                          Stephen A. Alterman
    Question. Mr. Alterman, in April 2015, the Aviation Security 
Advisory Committee promptly responded to TSA's request for assistance 
in reevaluating airport security. The Working Group that the Committee 
released put forward 28 separate recommendations for the improvement of 
airport security. This report itemized a number commonsense 
recommendations such as the expansion of random employee screenings, 
the expansion of disqualifying criminal offenses for employees, and the 
introduction of biometric standards for identify validation of 
employees. Could you please speak to TSA's reception of the Committee's 
2015 Report and more specifically any outstanding recommendations that 
you believe TSA should focus on further implementing and improving?
    Answer. Thank you very much for the question. As you note, the 
Aviation Security Advisory Committee (ASAC) made 28 separate 
recommendations for dealing with the issue of insider threats at 
nation's airports. These recommendations were issued unanimously by 
both the Employee Access Working Group formed to address the issue and 
by the full ASAC.
    Upon review, TSA concurred with all 28 recommendations and has 
either implemented, or is in the process of implementing, all the 
suggestions made. As with anything as comprehensive as the 28 
recommendations, some of the recommendations were easier to implement 
than others. And some of the more important recommendations are also 
some of the most complex and have taken longer to implement than 
others. For example, one of the centerpieces of the ASAC report is the 
recommendation that employees with access to the secure areas of 
airports be subject to increased random inspections that give the 
employees the expectation of being screened at any time that they are 
attempting to enter the secure areas and when they are in that secure 
area. Implementation of this recommendation requires sophisticated 
algorithms that create protocols that are both risk-based and airport 
specific. TSA is currently in the process of piloting this program at 
various airports around the country and ASAC continues to monitor its 
progress.
    In addition, other recommendations have taken longer than expected 
due to necessary coordination with other Federal agencies. However, 
even those are now in the initial implementation stage and we look 
forward to full implementation in the relatively near future.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                          Stephen A. Alterman
    Question. President Trump's travel and refugee ban. Has President 
Trump's executive order banning travelers and immigrants from seven 
Muslim-majority countries made it safer for our traveling public?
    Answer. An answer to this question demands intelligence information 
that I do not have either in my position of President of the Cargo 
Airline Association or as Chairman of the Aviation Security Advisory 
Committee. Therefore, I have no way to know the answer to the question.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                          Stephen A. Alterman
    Question 1. Insider threats and employee screening. The FAA 
Extension included a number of provisions to respond to insider threats 
and improve the screening of airport workers, such as requiring the 
recurrent vetting of airport workers as part of the FBI's Rap Back 
Program. The Detroit Metropolitan Airport has been very proactive in 
implementing these requirements and even going further by rebadging all 
18,000 employees every year and establishing a thorough and 
standardized inspection process for all deliveries to the airport. 
Considering the recent changes we have made to address insider threats, 
what else do you think Congress and TSA should do to protect airports 
and the traveling public from attacks?
    Answer. In view of several incidents traced to insider threats, TSA 
tasked the Aviation Security Advisory Committee (ASAC) with developing 
recommendations to combat this threat. The 28 recommendations made have 
either been implemented by TSA or are in the process of being 
implemented. ASAC continues to monitor progress and make further 
suggestions where appropriate.
    In addition, TSA has convened a Public Area Security Summit to 
address the issue of the threats to the public areas of airports. This 
Summit has representatives from all segments of the airport community 
(airport officials, local law enforcement, TSA representatives, 
airlines, academia etc.) and has met three times. The next meeting is 
scheduled for April 26 with the hope that a framework of dealing with 
public area threats can be agreed upon.
    Finally, one of the most effective deterrents is the targeted use 
of canine explosive teams to screen both passengers and cargo. 
Unfortunately, TSA does not have enough canines to be effective across 
the entire country and in all areas of the airport. In order to address 
this issue, ASAC has recommended that TSA establish a program to 
certify and audit third-party vendors who can be a source of additional 
canines. TSA has begun this process with the issuance of a Request for 
Information that led to an Industry Day on February 22 to discuss 
options for moving forward. TSA is currently digesting the information 
presented before taking further steps.

    Question 2. New Technologies. I am also a member of the Senate 
Homeland Security and Governmental Affairs Committee where I have been 
briefed about the various emerging threats our Nation is facing, and I 
believe we must be better prepared to detect these threats at our 
airports. Particularly, research is needed to more efficiently and 
effectively detect explosive devices during passenger and cargo 
screening. I understand TSA's Atlantic City laboratory has been working 
on explosives detection technologies to address the emerging threat of 
explosive devices. How can we incent the private sector to work 
collaboratively with TSA to research and develop these technologies?
    Answer. ASAC has also addressed this issue by recently establishing 
a Security Technology Subcommittee to explore ways to improve the 
development and certification of new technologies. It is important that 
industry be involved in this process at the earliest possible stages of 
development to ensure that the research envisioned by TSA will be 
usable by the industry. In addition, in an era of limited resources, 
TSA and industry should be encouraged to explore public-private 
partnerships in the development of the most promising technologies.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                          Stephen A. Alterman
    Question. The FAA Extension bill from last Congress helped to 
increase vetting of U.S. airport workers in order to prevent against 
insider threats to U.S. airports and our air travelers. However, we 
obviously do not have complete authority over foreign airports. In two 
recent attacks, one at Mogadishu International Airport in Somalia in 
2016 and one at Sharm El Sheik Airport in Egypt in 2015, foreign 
airport workers were believed to be complicit in aiding the attack. How 
can we ensure that foreign airports, especially those that are points-
of-last-departure in to the United States, are effectively screening 
their workers in order to root out potential terrorist threats?
    Answer. It is my understanding that TSA does a security assessment 
of all airports that are last points of departure for the United 
States. If an airport does not meet certain standards, flights to the 
United States are not permitted. More details on this process can 
probably be obtained directly from TSA.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Sharon Pinkerton
    Question 1. President Trump's travel and refugee ban. Does 
President Trump's executive order banning travelers and immigrants from 
seven Muslim-majority countries negatively impact your member 
companies?
    Answer. Our members work in partnership with Customs and Border 
Protection (CBP) on a daily basis to ensure compliance with all laws 
governing international travel and to address any travel accommodations 
that need to be made for international customers. We have not seen any 
operational impact as a result of the most recent executive order.

    Question 2. What are your member companies doing to support their 
consumers negatively impacted by President Trump's travel and 
immigration ban?
    Answer. Please see Question 1.

    Question 3. Has Airlines for America taken an official position on 
the travel and immigration ban? If not, please let me know when 
Airlines for America plans to take an official position?
    Answer. Please see Question 1.

    Question 4. Please provide a list of your member companies that 
have publicly opposed the travel and immigration ban and a list of the 
companies that have not.
    Answer. Please see Question 1.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                            Sharon Pinkerton
    Question. The FAA Extension bill from last Congress helped to 
increase vetting of U.S. airport workers in order to prevent against 
insider threats to U.S. airports and our air travelers. However, we 
obviously do not have complete authority over foreign airports. In two 
recent attacks, one at Mogadishu International Airport in Somalia in 
2016 and one at Sharm El Sheik Airport in Egypt in 2015, foreign 
airport workers were believed to be complicit in aiding the attack. How 
can we ensure that foreign airports, especially those that are points-
of-last-departure in to the United States, are effectively screening 
their workers in order to root out potential terrorist threats?
    Answer. Oversight and effective implementation of the provisions in 
the last Federal Aviation Administration (FAA) extension, including the 
requirement for the Transportation Security Administration (TSA) to 
conduct comprehensive security assessments for all overseas airports 
serving the United States, will play an important role in enhancing our 
aviation security system. Information sharing amongst governments will 
also play a key role in an ever improving risk-based security system.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                                Kim Day
    Question 1. Insider threats and employee screening. The FAA 
Extension included a number of provisions to respond to insider threats 
and improve the screening of airport workers, such as requiring the 
recurrent vetting of airport workers as part of the FBI's Rap Back 
Program. The Detroit Metropolitan Airport has been very proactive in 
implementing these requirements and even going further by rebadging all 
18,000 employees every year and establishing a thorough and 
standardized inspection process for all deliveries to the airport. 
Considering the recent changes we have made to address insider threats, 
what else do you think Congress and TSA should do to protect airports 
and the traveling public from attacks?
    Answer. As I mentioned in my written testimony, no one takes the 
prospect of an insider threat more seriously than the airport community 
does. At DEN, we are proud of our ongoing efforts in this area in an 
effort to protect the public, including our efforts to educate our 
workforce, secure airport worker access, and track airport employee 
credentials/badges.
    In your question, you cite a great example of an airport like DEN, 
going above and beyond the baseline requirements to enhance security 
and do what is right at their facility. Airports of all sizes across 
the country have implemented measures that are tailored to their 
facilities--both in regards to employee screening and security overall. 
DEN supports the risk based approach to employee screening and airport 
access control that was recommended by Aviation Security Advisory 
Committee's. TSA just recently issued an Information Circular to 
airports recommending that airports conduct and update at least every 
24 months an insider threat risk assessment and corresponding risk 
mitigation plan.
    These locally TSA-approved and airport implemented insider threat 
risk mitigation plans encompass (1) existing measures:

  <bullet> physical employee inspections,

  <bullet> limitations on the number and use of airport access points,

  <bullet> enhanced employee vetting

    and (2) additional measures and airport best practices:

  <bullet> threat intelligence sharing,

  <bullet> security awareness training and security recognition 
        programs,

  <bullet> identification media vetting and auditing,

  <bullet> covert testing of aviation workers,

  <bullet> random screening of individuals throughout the secure area 
        and beyond access points.

    Finally, the security imperatives of airports and TSA are closely 
aligned, and collaboration between the two to enhance the layers of 
security that exist and to identify and address potential treats in the 
airport environment is essential.
    As for what else Congress can do to help protect airports and the 
traveling public, we urge the Committee and Congress to fully fund TSA 
and its airport security programs. Airports perform a number of 
inherently local security-related functions at their facilities to 
assist TSA including, incident response and management, perimeter 
security, employee badging and credentialing, access control, 
infrastructure and operations planning, and a myriad of local law 
enforcement functions. TSA leans on airports for help and we give it. 
But there is an impact on airport budgets when this happens, which in 
turn impacts an airports' ability to fund other security initiatives.
    On the same note, we also urge you to reject proposals to eliminate 
funding for programs that help airports fulfill Federal security 
mandates--such as the law enforcement reimbursable agreement program. 
Airports, like the Federal Government, are resource constrained. We 
cannot afford the elimination of longstanding funding for statutorily 
mandated Federal requirements while continuing to provide TSA with 
additional staff and equipment voluntarily and balance law enforcement 
needs in other critical areas of our facilities.
    We urge the committee and Congress to reject efforts to federalize 
local security functions at airports. From a security and resource 
perspective, it is critical that inherently local security functions--
including incident response and management, perimeter security, 
employee vetting and credentialing, access control, infrastructure and 
operations planning and local law enforcement--remain local with 
Federal oversight and backed by Federal resources when appropriate.
    We urge the Congress to keep TSA focused on innovation and 
technology, in particular its pilot programs required by sections 3502 
and 3503 of the FAA Extension, Safety and Security Act of 2016. DEN has 
been selected to work with TSA on a pilot program to develop and test 
prototypes for new screening technologies to help address the evolving 
threats to our aviation system. Finding new and innovative ways to 
improve security must remain a top priority for the agency. We also 
request that Congress encourage TSA to continue its work with the 
Innovation Task Force which facilitates collaboration with TSA, 
industry and airports to ensure that the development, testing and 
deployment of innovative solutions continues to improve airport 
security.

    Question 2. VIPR teams. The FAA Extension provided TSA the 
authority to double the number of Visible Intermodal Prevention and 
Response (VIPR) teams from thirty to sixty and required them deployed 
at airports to conduct operations at sterile and non-sterile areas 
according to a risk-based approach. Have you seen any increased 
activity by VIPR teams or coordination between VIPR teams and airport 
law enforcement at Denver International Airport?
    Answer. Since 2011, Denver International Airport has had a VIPR 
team that is also tasked with supporting Colorado, Utah, Wyoming and 
New Mexico. DEN has enjoyed a very collaborative relationship with the 
VIPR Team and TSA in general for a long time. We have not seen an 
increase in activity related to growth of the VIPR program.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                                Kim Day
    Question. The FAA Extension bill from last Congress helped to 
increase vetting of U.S. airport workers in order to prevent against 
insider threats to U.S. airports and our air travelers. However, we 
obviously do not have complete authority over foreign airports. In two 
recent attacks, one at Mogadishu International Airport in Somalia in 
2016 and one at Sharm El Sheik Airport in Egypt in 2015, foreign 
airport workers were believed to be complicit in aiding the attack. How 
can we ensure that foreign airports, especially those that are points-
of-last-departure in to the United States, are effectively screening 
their workers in order to root out potential terrorist threats?
    Answer. Last year, Congress recognized the challenges of operating 
in a global environment and the potential vulnerabilities presented by 
varying security protocols at foreign airports. In the FAA Extension, 
Safety and Security Act of 2016 (P.L. 114-190), Congress directed the 
Transportation Security Administration (TSA) to conduct a comprehensive 
security risk assessment of all last point of departure airports with 
nonstop flights to the United States. The risk assessment needed to 
include, among other items, consideration of the security vetting 
undergone by aviation workers at such airport. DEN would be interested 
in reviewing the results of TSA's risk assessments of foreign airports, 
especially ones with last point of departure flights directly to our 
facility.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                              Mark Laustra
    Question. Mr. Laustra, could you describe in more detail how TSA 
has fallen short in its implementation of technology acquisition 
reforms, and identify specific improvements that the agency should make 
to facilitate better industry engagement and planning?
    Answer.
Background
    It starts with TSA's five-year acquisition plan requirements of the 
Transportation Security Acquisition Reform Act (TSARA--P.L. 113-245), 
TSARA required TSA to develop a 5-year technology acquisition plan. 
Released in August 2015, the Strategic Five-Year Technology Investment 
Plan for Aviation Security (henceforth referred to as the ``Five-Year 
Plan''), was a positive step forward in accountability, cross-
jurisdictional collaboration and industry engagement. An essential 
document for industry planning, the Five-Year Plan provided some 
visibility into TSA's schedule for replacement and upgrades of existing 
equipment, and projected future capability needs. But it was just a 
first step. Industry needs a more precise roadmap to know where and 
when to invest. Ensuring our R&D efforts focus on the capabilities that 
will meet TSA priorities and address emerging security threats is 
critical to protect the citizens of this country. Greater partnership 
between TSA and industry will only help with this process.
    The Five-Year Plan can be leveraged to vastly improve TSA's 
acquisition process and, ultimately, the security of our aviation 
system. This Committee is in a unique position to monitor progress TSA 
is making on acquisition reform. In fact, the TSA was directed by 
Congress to update the Plan every two years, and a new report is due to 
Congress this summer. Additionally, H.R. 1353, Transparency in 
Technological Acquisitions Act of 2017, was introduced last month by 
Rep. Kathleen Rice (D-NY). The bill would require TSA to notify 
Congress of any changes to its Five-Year Technology Investment Plan for 
Aviation Security, as well as require TSA to give Congress an annual 
update on its plan. This is an excellent opportunity to for the 
Committee to ensure TSA is making necessary changes to: streamline and 
strengthen the test and evaluation (T&E) process; align budget requests 
to identified requirements; provide clear and consistent details on the 
threat profile to ensure industry is prepared to respond and TSA is 
making the right investments; and ensure meaningful engagement with 
industry. In the update, we encourage Congress to request more specific 
dollar allocations and investment detail from TSA tied to particular 
equipment type.
Where Did TSA Fall Short?
    The 2015 Plan generically suggests a $3.6 billion investment over 
the five-year period but fails to align those expenditures along actual 
programs, projects and activities. Further, there was virtually no 
mention of ``new'' acquisition as opposed to recapitalization. Finally, 
the acquisition plan should be based on the true needs of the TSA from 
a technology capabilities standpoint, not an expected budget framework.
    Since its release, industry has been challenged by constantly 
shifting and changing funding levels for equipment, particularly for 
the checkpoint program. For example, the Plan stated that the TSA 
intended to purchase 897 Enhanced Metal Detectors for checkpoint 
screening with FY16 funds. The Five-Year Plan also indicated the TSA 
did not plan to purchase any Boarding Pass Scanners (BPS) or Credential 
Authentication Technology (CAT) systems. However, the FY17 TSA budget 
justification materials indicated that the TSA intended to use FY16 
enacted funds to purchase 625 CAT machines and 175 BPS. Similarly, the 
FY17 request indicates that no EMD will procured in FY16.
    The TSA has provided justification for shifts in the figures 
provided in the Five-Year Plan versus actual procurements. However, 
these constant shifts have challenged industry in developing their 
business and staffing plans. Industry needs more certainty that the 
figures contained in the Five-Year Plan update are reliable and will 
stick, and at a minimum that Congress and industry be advised right 
away if any changes occur.
    Overall, industry is concerned about future recapitalization plans 
outlined in the Five-Year Plan that consist of peaks and valleys on a 
year by year basis. This makes resource allocation and staffing 
extremely challenging for manufacturers. A more consistent, level spend 
plan spread out over the five years would enable original equipment 
manufacturers (OEMs) to maintain consistency in staffing and 
manufacturing plans.
T&E Process Reform
    TSARA is an important first step to meaningful reforms, but while 
plans are great, it is the implementation of those plans that 
determines ultimate success. TSA outlined a number of initiatives 
underway in the initial Plan that seek to improve the acquisitions 
process, particularly relating to the development, testing, and 
qualification of security equipment. While TSA has done a good job of 
providing transparency into the process for industry, the fact remains 
that under the best scenario, it can take three years or longer to 
navigate a piece of equipment through the T&E process. While the bar 
must be high, this process impacts innovation, competition, improved 
security and efficiency, as both the government and industry expend 
undue time and resources navigating a complicated process. Industry 
encourages the TSA to outline the specific steps in detail that have 
been taken to reform the testing process in the Five-Year Plan update.
    Perhaps the single, most critical element for ensuring a successful 
test and evaluation process is the thoughtful development of equipment 
requirements. TSA and industry have struggled over the years with 
requirements that number in the hundreds, many of which have little 
relevance with the core detection and operational performance of the 
equipment. There is also the challenge of constantly shifting 
requirements, which cause significant disruptions in the testing 
process. Industry has urged TSA with each procurement to identify the 
handful of solid, core requirements to test capabilities. Industry 
again suggests the TSA outline how its reorganization will facilitate 
the development of better requirements to ensure a more efficient T&E 
and overall acquisitions process.
    In summary, shortening and streamlining equipment testing and 
collaborating with industry to identify recurrent chokepoints in the 
process and develop solutions would go a long way to getting newer, 
more advanced equipment into the field. It will provide a higher-degree 
of certainty to industry that the process isn't a series of roadblocks, 
but important, measurable checkpoints on a linear road. It will also 
help to foster more competition and effective use of government and 
industry resources.
S&T Investment and Interagency Collaboration
    The TSA's Five-Year Plan projects a more integrated engagement with 
the DHS Science & Technology Directorate. We urge the Committee to 
require more detail in the update to the Five-Year Plan to include 
specific examples and plans of S&T investment directly tied to 
fulfilling TSA identified capability gaps and future requirements; the 
subsequent transition of TSE from development to the T&E stage; and 
eventually acquisition. There are substantial opportunities to improve 
coordination between S&T and TSA to ensure the development of newer, 
higher-capability equipment that can be transitioned to a more 
effective testing process and fielded more expeditiously.
    Industry supports the thoughtful investment of research dollars, 
provided it is tied to addressing real threats identified by TSA as a 
capability gap and with an eye toward eventual and realistic 
procurement either by the government or as a requirement of government 
(as in the case of air cargo). Former Secretary Johnson's efforts to 
better align S&T Integrated Product Teams (IPT) under the Unity of 
Effort Initiative was a welcome first step. TSA needs to have a 
prominent role in the IPT effort, and ultimately should have a lead 
role in identifying key R&D needs and activities, as they are 
responsible for acquiring and operating equipment that will meet new 
and evolving threats. Further, industry input should be solicited early 
on in the process to ensure research goals align with achievable, cost-
conscious results.
Lifecycle
    Along with the T&E process and up and down procurement cycles, 
there are other notable challenges for industry. In 2014, with no 
industry input, TSA made a decision to expand the projected lifecycle 
of EDS equipment from 10 to 15 years. This had significant implications 
on company manufacturing and staffing plans. While the justification by 
TSA was that detection capabilities for known threats continues to be 
sufficient, the results are that future threat research and response is 
stifled and next-generation detection and high-speed capabilities are 
delayed.
    The lifecycle decision may have a very real budgetary and 
operational impact for TSA, as the ability to maintain and keep 
equipment fully operational and performing its mission after 10 years 
of service is increasingly difficult. This means more patches, 
difficulty finding replacement parts, more service calls, antiquated 
operating systems, and less efficiencies. Further, trying to bring 10-
15-year-old equipment into the Age of the Internet of Things is almost 
impossible as the equipment was designed and built to requirements that 
never envisioned cybersecurity, Internet connectivity or data 
conversion capabilities.
    Congress should closely watch TSA lifecycle equipment 
determinations for both delayed security impacts, operational cost 
increases and the very real implications for a viable domestic security 
industrial base. At a minimum, pushing equipment approval timelines to 
the right delays the next generation of equipment with increased 
capabilities, hinders current performance and stifles innovation.
    A market environment that engenders innovation is our best defense 
against improvised explosives and thwarting transportation threats. 
Certainly intelligence is key, but when this fails, if we are not 
encouraging technological innovation and next-generation investment, we 
will lose not only our technological edge, but the industrial base that 
goes with it.
Transportation Security Equipment Funding
    As mentioned in the Five-Year Plan, TSA is transitioning into a 
technology sustainment mode focusing on recapitalization of over 2,400 
pieces of equipment that are reaching their end of life over the next 
five years. While process is key, it is also absolutely critical to 
ensure that recapitalization of security equipment is fully funded to 
keep our transportation system safe and the industry viable.
    Industry is grateful to Congress for its leadership in fully 
funding the FY16 DHS budget request for TSA Checkpoint Support and EDS 
Procurement/Installation. We encourage the Subcommittee to work with 
your colleagues to continue this trend while reducing the bureaucratic 
barriers for innovation and deployment.
    This Committee is encouraged to require future TSA budget documents 
to allot specific funding amounts to various technologies within the 
Checkpoint Support account and insist the newly revised Five-Year Plan 
provides a lookback on actual equipment purchased during the preceding 
three Fiscal Years. Because Checkpoint Support funding is not 
delineated to individual equipment types, industry has had difficulty 
ensuring Federal funds are truly reaching the intended target and 
consistent with previous documents. Further, previous EDS procurements 
have been significantly delayed or cancelled after significant vendor 
investment. Congress should insist on an accounting for these unspent 
funds and ensure they are carried over EDS replacement only.
    These details would go a long way to informing Congress on the true 
TSA operational equipment need as opposed to budget constrained funding 
requests.
Industry Recommendations to Improve TSA Wait Times
    Industry supports common sense solutions to help alleviate 
passenger wait times at screening checkpoints, both now and into the 
future. While short term fixes were necessary to address wait times 
last summer, the back-up at security checkpoints indicates deeper 
systemic issues that require sustained attention. The International Air 
Transport Association (IATA) predicts that the number of air passenger 
journeys globally will increase by four percent on average per year 
until 2034, more than doubling the overall number of trips taken as of 
2014. So while alleviating the immediate pressure on the checkpoint 
screening process is a necessary objective, without turning towards 
medium and long term solutions, a piecemeal approach will only mask 
underlying issues. To that end, we suggest TSA and the Congress 
consider the following action items:

  1)  Develop and Implement an R&D Checkpoint Investment Plan:

        We support former DHS Secretary Johnson's announcement that the 
        Department will ``double down'' on R&D investments for 
        technology that will improve passenger processing. Given 
        current conditions, TSA should immediately reassess its R&D and 
        procurement strategy to identify upgrades to current technology 
        or new technologies that will significantly improve the 
        passenger screening process, both in terms of processing time 
        and detection capabilities. Some short-term options for 
        consideration include investments in security lane design and 
        reconfiguration; remote screening; equipment to automate the 
        checkpoint process; immediate development and deployment of 
        advanced algorithms to improve the throughput and detection 
        capabilities of fielded passenger and carry-on baggage 
        screening technologies; and a plan to advance the deployment of 
        next generation CT scanners for the checkpoint.

  2) Improve Equipment Qualification and Acquisition Practices:

        Opportunities to improve the passenger screening process have 
        been mired by a lengthy equipment qualification and acquisition 
        process. Many new technologies and technology upgrades are 
        languishing--often for over three years--in the test and 
        evaluation phase and hampered by unnecessary administrative 
        delays, retesting of non-security equipment elements, and 
        poorly defined requirements. DHS and TSA should immediately 
        develop a plan to improve transportation security equipment 
        (TSE) acquisition by streamlining the test and evaluation 
        process; allowing new technologies to be tested and trialed in 
        the field; and setting strict deadlines on administrative 
        decisions.

  3) Designate Specified Lane Design Funding and Pre-Screening 
        Improvements:

        Increasing TSO staff levels will not decrease wait times alone 
        without significant changes to lane configuration and passenger 
        cueing strategies, where possible. Congress should dedicate 
        additional funding to reconfigured lane design and throughput 
        improvement. This investment will help augment staffing needs 
        and allow TSA to think strategically about how to manage 
        passenger volume increases in the future while reducing airport 
        vulnerabilities. TSA should also consider mobile security 
        checkpoints designed to randomly screen passengers and 
        employees with hand-held explosive trace detection, portable X-
        ray systems and K-9 units to reduce airport chokepoints at 
        centralized screening locations.

  4) Revise TSA Equipment Training Protocols and Certifications:

        While TSA is examining its current training protocol, the 
        agency should consider allowing manufacturers greater direct 
        input and engagement with trainees on how to efficiently and 
        effectively utilize screening equipment both for speed and 
        detection. In most instances, equipment training is handled by 
        third parties. TSA should look to establish a certification 
        process with the manufacturers to ensure TSOs fully understand 
        the functionality and capabilities of each component.

  5) Survey Existing TSE Fleet and Replace Aging Equipment:

        The TSA manages over 15,000 checked baggage and checkpoint 
        screening technology devices. As equipment is extended past 
        warranty and reaches and exceeds its manufacturer recommended 
        useful life, airports occasionally experience increased wait 
        times and delayed baggage due to greater service and 
        maintenance needs. TSA should more routinely refresh and 
        recapitalize equipment, with a specific focus on those systems 
        that have limited capability to be upgraded to meet current and 
        future requirements, as well as those at or nearing their 
        lifecycle replacement timeframes. This will reduce maintenance 
        expenses, limit equipment downtimes, and ensure higher fidelity 
        and capacity screening equipment is in the field.

  6) End the Raid on Aviation Security Fees:

        Pursuant to the Bipartisan Budget Act (BBA) of 2013, upwards of 
        $15.8 billion in security fees paid for by travelers, is due to 
        be diverted to deficit reduction and other non-security 
        activities over 12 years. This sort of burden shifting is risky 
        at any time; however, given the increased passenger volumes and 
        demand on screening infrastructure and the TSA, it seems only 
        prudent to direct these funds to targeted investments in 
        security technology and TSA workforce training.
Closing
    As equipment begins to phase out, new technologies must be 
researched, developed and purchased. New threats cannot be resolved 
with antiquated solutions.
    Industry encourages continued, vigilant oversight. However, we 
would encourage the Congress to be mindful of new legislation that 
could serve to bog down an already ponderous acquisitions process with 
more requirements and procedures. This could serve to add additional 
delays and costs. We recommend Congress work with TSA and industry to 
find efficiencies and make this complicated process more streamlined 
and effective. Doing so will save time and money, while providing OEMs 
and emerging companies more certainty to develop and produce a new 
generation of equipment with better capabilities to meet ever-evolving 
threats.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Gary Peters to 
                              Mark Laustra
    Question. New technologies. I am also a member of the Senate 
Homeland Security and Governmental Affairs Committee where I have been 
briefed about the various emerging threats our Nation is facing, and I 
believe we must be better prepared to detect these threats at our 
airports. Particularly, research is needed to more efficiently and 
effectively detect explosive devices during passenger and cargo 
screening. I understand TSA's Atlantic City laboratory has been working 
on explosives detection technologies to address the emerging threat of 
explosive devices. How can we incent the private sector to work 
collaboratively with TSA to research and develop these technologies?
    Answer. Perhaps the single, most critical element for ensuring 
continuing investments in R&D by the security manufacturers is the 
thoughtful development of equipment requirements. TSA and industry have 
struggled over the years with requirements that number in the hundreds, 
many of which have little relevance with the core detection and 
operational performance of the equipment. There is also the challenge 
of constantly shifting requirements, which cause significant 
disruptions in the testing process. Industry has urged TSA with each 
procurement to identify the handful of solid, core requirements to test 
capabilities. Industry again suggests the TSA outline how its recent 
reorganization will facilitate the development of better requirements 
to ensure a more efficient Test & Evaluation and overall acquisitions 
process.
    In summary, developing robust equipment requirements, shortening 
and streamlining equipment testing and collaborating with industry to 
identify recurrent chokepoints in the process and develop solutions 
would go a long way to getting newer, more advanced equipment into the 
field. It will provide a higher-degree of certainty to industry that 
the process isn't a series of roadblocks, but important, measurable 
checkpoints on a linear road. It will also help to foster more 
competition and effective use of government and industry resources.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                              Mark Laustra
    Question. The FAA Extension bill from last Congress helped to 
increase vetting of U.S. airport workers in order to prevent against 
insider threats to U.S. airports and our air travelers. However, we 
obviously do not have complete authority over foreign airports. In two 
recent attacks, one at Mogadishu International Airport in Somalia in 
2016 and one at Sharm El Sheik Airport in Egypt in 2015, foreign 
airport workers were believed to be complicit in aiding the attack. How 
can we ensure that foreign airports, especially those that are points-
of-last-departure in to the United States, are effectively screening 
their workers in order to root out potential terrorist threats?
    Answer. Respectfully, the question of how we can ensure foreign 
airports are effectively screening their workers is better addressed by 
the Department of Homeland Security agencies whose mission it is to 
ensure the safety of the traveling public including those traveling 
overseas.

                                  [all]
</pre></body></html>
